<html>
<title> - BUILDING A F.A.S.T. FORCE:. A FLEXIBLE PERSONNEL SYSTEM FOR A MODERN MILITARY</title>
<body><pre>[Senate Hearing 115-718]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-718

                       BUILDING A F.A.S.T. FORCE:
           A FLEXIBLE PERSONNEL SYSTEM FOR A MODERN MILITARY

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 3, 2017

                               __________

         Printed for the use of the Committee on Armed Services

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                 Available via http://www.govinfo.gov/

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
38-452 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------

                      COMMITTEE ON ARMED SERVICES
                      
  JOHN McCAIN, Arizona, Chairman                            
JAMES M. INHOFE, Oklahoma, Chairman	JACK REED, Rhode Island
ROGER F. WICKER, Mississippi		BILL NELSON, Florida
DEB FISCHER, Nebraska			CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas			JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota		KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa			RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina		JOE DONNELLY, Indiana
DAN SULLIVAN, Alaska			MAZIE K. HIRONO, Hawaii
DAVID PERDUE, Georgia			TIM KAINE, Virginia
TED CRUZ, Texas				ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina		MARTIN HEINRICH, New Mexico
BEN SASSE, Nebraska			ELIZABETH WARREN, Massachusetts
LUTHER STRANGE, Alabama              	GARY C. PETERS, Michigan                    
                      

              Christian D. Brose, Staff Director
              Elizabeth L. King, Minority Staff Director

_________________________________________________________________

                   Subcommittee on Personnel

     THOM TILLIS, North Carolina
                Chairman
JONI ERNST, Iowa    		       KIRSTEN E. GILLIBRAND, New York
LINDSEY GRAHAM, South Graham	       CLAIRE McCaskill, Missouri
BEN SASSE, Nebraska		       ELIZABETH WARREN, Massachusetts

                       
                               (ii)

 

                         C O N T E N T S

_________________________________________________________________

                              May 3, 2017

                                                                   Page

Building A F.A.S.T. Force: A Flexible Personnel System for a          1
  Modern Military.

Talent, Senator James M., Co-Chair, Bipartisan Policy Center Task     3
  Force on Defense Personnel.
Roth-Douquet, Kathy, Co-Chair, Bipartisan Policy Center Task          5
  Force on Defense Personnel.
Punaro, Major General Arnold L., USMCR (Ret.), Bipartisan Policy     12
  Center Task Force on Defense Personnel.

                                 (iii)


 
                       BUILDING A F.A.S.T. FORCE:.
           A FLEXIBLE PERSONNEL SYSTEM FOR A MODERN MILITARY

                              ----------                              


                         WEDNESDAY, MAY 3, 2017

                               U.S. Senate,
                         Subcommittee on Personnel,
                               Committee on Armed Services,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
Room SR-232-A, Russell Senate Office Building, Senator Thom 
Tillis (chairman of the subcommittee) presiding.
    Committee Members present: Senators Tillis, Ernst, 
Gillibrand, McCaskill, and Warren.

            OPENING STATEMENT OF SENATOR THOM TILLIS

    Senator Tillis. I want to call the hearing to order.
    The Senate Armed Services Committee will, first off, 
welcome everyone. Thank you for coming.
    The Senate Armed Services Subcommittee on Personnel meets 
this afternoon to discuss the findings and recommendations of 
the Bipartisan Policy Center's Task Force on Defense Personnel 
Reform.
    Today we welcome a distinguished panel of witnesses 
representing the task force: Senator Jim Talent, former senator 
from the great state of Missouri; Ms. Kathy Roth-Douquet, CEO 
[chief executive officer] of Blue Star Families, welcome back; 
and Major General Punaro, former Staff Director for the Senate 
Armed Services Committee. Welcome back.
    The Bipartisan Policy Center established a task force led 
by co-chairs Secretary Leon Panetta, Senator Jim Talent, 
General Jim Jones, and Ms. Kathy Roth-Douquet, to assess the 
Nation's imperative to improve Defense personnel systems to 
better meet unpredictable future national security needs.
    Prior to establishing a final report, the 25-member task 
force published a series of white papers examining the 
strengths and weaknesses of Defense personnel policies and 
practices, and in March 2017 the task force published its final 
report, ``Building a F.A.S.T. Force: A Flexible Personnel 
System for a Modern Military.'' This comprehensive report 
included 39 distinct recommendations that will provide a fully 
engaged, adaptable, sustainable, and technically proficient 
force of the future.
    The Senate Armed Services Committee and the subcommittee in 
particular have been focusing on reforms aimed at developing 
more flexibility and permeability in the military and civilian 
personnel systems. This discussion today will continue these 
efforts.
    I want to recognize the extremely valuable work of the task 
force and also thank the witnesses for being here today. I look 
forward to hearing your testimony and the questions that 
follow.
    Senator Gillibrand, welcome to the committee as Ranking 
Member. Would you like to make any comments?

            STATEMENT OF SENATOR KIRSTEN GILLIBRAND

    Senator Gillibrand. Thank you, Senator Tillis. I join you 
in welcoming our witnesses today. As we learn more about the 
report and recommendations of the task force, I agree that it's 
important for us to carefully examine the Department of 
Defense's (DOD) military and civilian personnel systems to 
ensure that they meet the needs of our 21st Century workforce.
    For more than 40 years, we've depended on volunteers to 
defend our Nation. Those who are serving our military today and 
their families are serving because they choose to do so, not 
because they're required to serve. In that time, our country, 
our economy, and the nature of the threats we face have all 
changed significantly.
    The military personnel system that supports this All-
Volunteer Force has served us well, but it has not kept pace 
with the changes in society. We don't need to completely 
replace the current system, but we should and will carefully 
examine it to see where it can be updated and improved. It's 
essential that our All-Volunteer Force is recruited and managed 
and retained with 21st Century tools that address the needs of 
this generation of servicemembers and families.
    The task force produced a series of analytical papers and 
examined the strengths and shortcomings of current personnel 
policies and practices and made 39 specific recommendations to 
improve the personnel system. While all 39 recommendations 
warrant careful study and analysis, there are a few areas I'd 
like to address today at this hearing.
    I'm particularly interested in how we can best serve our 
military families. We all know that families play a critical 
part in the servicemember's readiness and his or her decision 
to stay in or leave the military. I would like to hear from you 
today about making it easier for military spouses to find and 
sustain a career, especially when relocating, improving access 
to and quality of Defense Department-provided childcare 
services, and creating on-base childcare coordinators to 
advocate for military families in the local community, and to 
build private-public childcare partnerships.
    Another area I'm very interested in hearing about is how to 
build and support a flexible cyber workforce with the highly 
skilled specialized skills that are necessary to handle the 
growing cyber mission.
    I'd like to hear about the continuum of service that would 
make it easier to repeatedly transition between Active, Guard, 
and Reserve components; expansion of lateral entry authority to 
allow mid-career civilians to enter the military at higher 
ranks; and the expansion of the Reserve Officer Training Corps 
program to all levels of higher education to include post-
graduate and community college students.
    Finally, I'm curious about your recommendations that 
encourage creation of technical non-command career track for 
certain officers.
    In last year's NDAA [National Defense Authorization Act], I 
worked on developing military justice expertise among our 
judges and advocates. One area that I asked the Department to 
look at was additional O-4 to O-6 positions that would allow 
officers to specialize, be it in military justice or in cyber.
    Again, thank you to the witnesses, and I look forward to 
hearing about your recommendations.
    Senator Tillis. Thank you.
    Senator Ernst, would you like to say anything before we 
move to the testimony?
    Senator Ernst. I'd just like to thank our witnesses for 
being here today.
    Senator Tillis. Well, thank you.
    I look forward to all your opening comments.
    We'll begin with Senator Talent.

  STATEMENT OF SENATOR JAMES M. TALENT, CO-CHAIR, BIPARTISAN 
         POLICY CENTER TASK FORCE ON DEFENSE PERSONNEL

    Senator Talent. I thank you, Mr. Chairman. I thank the 
Ranking Member. Her comments stated the theme of our report. 
I'll go ahead and give the opening statement anyway and 
struggle along without my reading glasses.
    We're very pleased with how the subcommittee and the 
committee have focused on personnel issues, and we're grateful 
for the opportunity to talk about our task force report in this 
hearing.
    The foundation of America's military strength is the 
quality and morale of the men and women who have chosen to 
service. We on the task force are grateful, as we know you are, 
to all those who volunteer for the Armed Forces. It's their 
dedication and their sacrifice that, in a world of growing 
risk, keeps our country and our people safe.
    Yet, we can't take the strength and the quality of our 
servicemen and women for granted. We have to recruit and keep 
the best people with the most cutting-edge capabilities going 
forward, and as you all know, that's already a problem. The Air 
Force is 1,500 short in terms of pilots. The Navy is struggling 
to maintain nuclear-qualified officers. The Marines are short 
in their sniper scout capabilities. All the branches are 
struggling to build and maintain new cyber units, which Senator 
Gillibrand mentioned.
    The military must also, going forward, engage the entirety 
of American society, and that's a problem too. The military is 
becoming a kind of family business. About 80 percent of today's 
recruits come from a military family. About half of them come 
from the South. The Northeast is severely underrepresented in 
that, and as far as we can tell and as far as we were able to 
determine in our deliberations, it's not because young people 
are opposed to service in the military; it's because they've 
never really engaged with the idea. We think that's largely 
because the Department is not doing as good a job as it should 
of engaging with them on a broad spectrum.
    So those problems are the tip of an iceberg that we're 
concerned are going to keep getting bigger and bigger unless we 
act. The underlying problem, as the Ranking Member said, is 
that the current military personnel system was developed in 
World War II. It was refined for the Cold War, and that was a 
time when war, which while it certainly was not simple, was not 
as complex as it is today, and that was a time when American 
society was very different than it is today.
    In 1960, only 25 percent of married couples in the country 
had two income earners. Today it's 60 percent. So American 
families have come to rely on two incomes, and it's difficult 
to maintain two incomes in a military family if you're the 
second wage earner and your spouse is moving every 1 or 2 years 
and you don't even know where they're going to be going.
    The post-World War II period saw hardly any women in 
uniform. Today, 15 percent, thankfully, of our servicemembers 
are female, and they're serving in virtually every military 
specialty. Sixty years ago, few servicemembers were married. 
Today, over half of servicemembers are married, and 41 percent 
of them have children, and 20 percent of the females on Active 
Duty are married to somebody else on Active Duty, which 
presents its own unique challenges when it comes to balancing 
family with military demands.
    So going forward, if the military is going to recruit and 
retain a volunteer force with the necessary skills, it needs to 
do two things. It needs to recruit, assign, and promote in a 
way that develops and retains value across a wide range of 
skills, including the highly technical skills; and it needs to 
better accommodate the evolution of American society and the 
American family, and it needs to do those things without 
sacrificing the aspects of the system that are working well.
    So we want to examine those challenges. We formed a task 
force of 25 members that come from all different backgrounds, 
from the military or former military, like the General, former 
public officials like me, really powerful advocates for 
families like Kathy, and people from medicine and the law. We 
began. We examined the threats, the likely needs of the 
Department going forward. We had a number of focus groups and 
listened to people all throughout the services. All of them 
supported, by the way, strong personnel reform.
    Our report offers 39 recommendations. I'm not going to try 
to go through them all now. They cover the waterfront. I would 
say that if you think about them as coming in four categories, 
it might be useful for you: recruiting, assignments, promotion, 
and career progression. That covers a lot of the 
recommendations. The military lifestyle or accommodating 
military personnel policies to the military family; and then 
reform of compensation and services. We think we can have a 
compensation package that is more affordable, but also more 
satisfying to military servicemembers.
    I'll just close. In our written statement we recommend five 
changes you could do if you were of a mind to in this year's 
NDAA.
    Expand lateral entry--Senator Gillibrand touched upon 
that--to allow more mid-career civilians to enter the military 
at higher ranks and on flexible terms. Of course, the military 
already does this. But to reach out into the civilian 
workforce, pull people out mid-career to help with particular 
specialties, whether it's military justice or cyber or finance 
or engineering.
    Improve our recruiting efforts, and we've really tried to 
highlight this by coming up with a common e-application form, 
because young people, of course, live online. If we had one 
form, it would enable the Services to work together rather than 
competing as much and make the whole process more accessible to 
young people.
    We recommend enhancing and expanding the Selective Service 
System to include all young American adults, and also at the 
time that these young people register, we recommend having them 
take the military aptitude test. This is so that we can engage. 
It's an access point that already exists where the military can 
engage, the Armed Forces can engage with people and they can 
engage with the Armed Forces, and we can develop an inventory 
of skills so that we can reach out on an individualized basis 
and recruit.
    Finally, improve access to and the quality of the 
Department's childcare services. Kathy, I'm sure, will want to 
talk more about this. This is a very important thing for 
military families. The childcare centers are good where we have 
them, but we don't have enough, and there are long waiting 
lists, so we need more of them. But we also need some 
flexibility in order to help military families with other kinds 
of arrangements that may be available in the places where 
they're posted.
    I don't know if I went over the 5 minutes. Secretary 
Panetta and General Jones send their regards to the committee 
and their regrets that they couldn't be here. We are happy to 
be here, and we're looking forward to your questions. Thank 
you, Mr. Chairman.
    Senator Tillis. Thank you, Senator.
    Ms. Roth-Douquet?

 STATEMENT OF KATHY ROTH-DOUQUET, CO-CHAIR, BIPARTISAN POLICY 
             CENTER TASK FORCE ON DEFENSE PERSONNEL

    Ms. Roth-Douquet. Thank you. I appreciate the comments of 
Senator Talent and agree with all of them. The only thing I 
would like to mention is that the currently serving force, as 
you know, Active Duty, Guard, and Reserve and their families, 
they love their mission and they love their service. There are 
things that make continuing to serve extremely difficult for 
them, and they don't help national security.
    In many ways, our current personnel system is a little bit 
like trying to do your job in a straightjacket. It doesn't help 
anybody. When our members hear that this committee, that you 
senators are willing to look at and take on this issue, they 
are tremendously excited and motivated because they know this 
is a very arcane topic. It's hard for Americans to understand 
that there are things about the way our day-to-day lives are 
managed that make it difficult to do our job and that interfere 
with our missions and have nothing to do with what's going on 
in Syria and North Korea.
    The missions don't deter us. The inability to have a say in 
stewarding our own careers as a family do, and the difficulty 
of having the whole person engaged in their career in the 
military, the whole person being someone who has a family.
    So we are very grateful to have you hear us talk about 
this, and that in itself is a huge benefit, and we look forward 
to the rest of this conversation.
    [The joint prepared statement of Senator Talent, Ms. Kathy 
Roth-Douquet, and Major General Arnold Punaro follows:]

   Joint Prepared Statement by Senator James Talent, Ms. Kathy Roth-
                Douquet, and Major General Arnold Punaro
    Good afternoon Chairman Tillis, Ranking Member Gillibrand and 
members of the committee. Thank you for inviting us here to discuss the 
Bipartisan Policy Center's Task Force on Defense Personnel.
    The foundation of U.S. military power is the quality and morale of 
the men and women who have chosen to serve the Nation--in and out of 
uniform. This fact is especially true after more than 15 years of 
conflict and heightened risks for the Nation. Meeting these challenges 
has led to frequent deployments in what remains a challenging global 
security environment.
    The Nation and its leaders must not take our strength for granted. 
We fear our military lacks the capability to attract, use, and keep the 
unconventional, technical, and cutting-edge talents and skills that it 
needs to meet future threats and new realities. We must meet rapidly 
evolving and unpredictable national security challenges ahead. More 
than ever, the U.S. military must fully engage the entirety of American 
society, not only to expand the military's access to talent, but to 
also reconnect the Nation to its military. The highly capable men and 
women needed for an all-professional force will always have out-of-
uniform career opportunities; the United States must ensure that 
national service remains a compelling calling and creates a sustainable 
lifestyle for individuals and families.
    While the military personnel system has many strengths, we have all 
seen cases where it serves as a barrier to readiness and performance. 
Further, as American society has changed substantially since the post-
World War II era--in which the modern military personnel system was 
shaped--the adverse impacts on military families are increasing. While 
our research and experience suggests that American servicemembers and 
military families are more than willing to make sacrifices to achieve 
the mission, many of the negative impacts these members and families 
endure are unnecessary for national security needs. The problems the 
military faces today with recruiting and retention are a consequence of 
legacy policies that need updating in ways that many other 
organizations have successfully implemented.
    To examine these challenges, the Bipartisan Policy Center launched 
the Task Force on Defense Personnel. Over the last year, our 25-member 
task force carefully reviewed the issues confronting our military, our 
troops, and their families. We started our effort by looking at the 
threats facing our Nation and the capabilities our military needs to 
counter them. Only after we had answered those two questions did we 
begin crafting our policy recommendations. The reforms we're advocating 
will help ensure our military is prepared for the complex global 
security environment ahead.
    Members of the task force possess considerable expertise on all 
matters related to defense personnel management. They have a variety of 
backgrounds and relevant experience, including former elected and 
appointed officials with congressional, White House, Pentagon, and 
other cabinet-level agency experience; former servicemembers (enlisted, 
officers, Active, and Reserve); and private-sector experience in 
business, medicine, higher education, nonprofits, and as advocates for 
servicemembers and military families.
    As part of our research, we organized several focus groups with the 
military community. This afforded us a deeper understanding of the 
impact of personnel policy on servicemembers and their families. We 
heard from officers, enlisted, and warrant officers from every branch 
of service, both Active and Reserve. We also spoke with their families. 
Nearly everyone told us they strongly supported major reform of the 
personnel system. They expressed growing concern that today's military 
lifestyle harms recruiting and retention for the next generation of 
servicemembers.
    Our deliberations were not easy. Task force members came with 
diverse viewpoints and strongly held beliefs, some of which were 
challenging to reconcile. Nonetheless, the entire task force believes 
that, as a package, our recommendations would significantly improve 
current defense personnel policy and build a stronger military.
                              the problem
    National security needs must drive defense personnel policy to 
build a military well-positioned to advance the Nation's interests. 
Since the threats facing the Nation continuously evolve, military 
recruitment, retention, and management policies must continuously 
evolve as well. If personnel policy fails to meet national security 
needs, it becomes wasteful and inefficient, degrading the military's 
capability. Our military faces this precise challenge today.
    Policymakers have resisted these reforms, in part, because of a 
false perception that the military has access to all the people it 
needs. Critics will point to the success of the all-volunteer force as 
evidence for leaving the current personnel system in place. However 
well-intentioned these critics may be, they rely on a logic not applied 
to other military capabilities. We do not wait for U.S. fighter jets to 
become obsolete before beginning to design their replacements, for 
example. While recognizing the value and strengths of the legacy 
personnel system, it can and must be improved without breaking a 
military that is still exceedingly capable.
    Three key dynamics form the rationale for defense personnel system 
reform:
    <bullet>  new and unique demands on the military due to the 
changing global security environment;
    <bullet>  unaffordable growth and expanded scope of personnel 
costs; and
    <bullet>  dramatic changes in American society and its connection 
to the military.
    As an indication of these three overarching challenges, we are 
already seeing worrying recruiting and retention trends in specific 
occupational specialties across the force. The Air Force faces a severe 
and growing pilot shortage in the Active and Reserve components, and 
increased cash retention bonuses are doing little to improve the 
situation.
    Similarly, as the Army looks to increase its overall end-strength, 
they are offering large cash bonuses to convince soldiers to extend 
their enlistments. In some cases, the Army is offering bonuses to 
soldiers in exchange for just 12 months of additional service. In the 
recent past, we've also seen recruiting standards drop when the Army 
tried to grow too quickly.
    The Navy strains to retain officers who operate its ships' nuclear 
reactors and has recently increased the Nuclear Officer Incentive 
Continuation Pay by 15 percent. While money can help, it is not the 
only or even most important factor in servicemember retention 
decisions.
    The Marine Corps has announced that it has a ``critical'' sniper 
shortage due to high washout rates from sniper training. One of the 
main issues identified as a factor in the shortage is the high-turnover 
rate, driven by a lack of career progression. These remain 
fundamentally personnel policy challenges.
    Though these acute challenges represent a small percentage of the 
total force, these specialties are indicative of the skills the 
military will rely upon more as it looks to the future. Specialized, 
experienced, and highly trained personnel will become more, not less, 
important in the unpredictable and complex security environment our 
country faces.
The New Global Security Environment
    National security concerns and U.S. military success in the future 
global security environment remain primary factors for policymakers to 
consider when assessing the need for personnel reform. Without 
question, when today's military and civil service personnel systems 
were created, the United States faced very different threats than the 
Nation faces today. In the wake of World War II, the Soviet Union 
loomed as perhaps the only danger confronting the Nation. Those were 
simpler times.
    While core U.S. national security interests have largely remained 
constant in the quarter-century since the end of the Cold War, the 
threats arrayed against those interests are spreading geographically, 
transforming strategically, and evolving technologically. Once viewed 
as archaic, the threat of great-power conflict-- with the resurgence of 
Russia and rise of China--is suddenly relevant again. Add to that the 
more diffuse threats from malicious non-state actors, who have mastered 
the techniques of unconventional warfare while metastasizing across 
much of the world. Rogue nations have made tremendous technological 
advances, allowing them to erode much of the traditional military 
superiority long enjoyed by U.S. forces.
    Worse, these trends have coalesced to create a gray zone of 
conflict, in which adversaries seek to erode the existing international 
order--not through military victory but through a prolonged wearing 
down of both established norms and the willingness of responsible 
actors to uphold them. In such conflicts of attrition and ambiguity, 
nation states deploy proxies, non-state actors field sophisticated 
weaponry, and new domains like cyberspace allow weaker powers to 
exploit unforeseen vulnerabilities.
    In this new normal, a military designed to wage only conventional 
war against great powers will not be enough. The United States must 
become capable of winning against more-opaque adversaries as well. 
Success against future enemies on new battlefields will require not 
only physical strength and vigor but, increasingly, mental agility, 
technical experience, and rapid innovation. Our current military 
personnel system is not designed to build the sort of force we will 
need to confront this wide-variety of threats.
Rising Personnel Costs
    The nature of the all-volunteer, professional military requires 
that servicemembers be better compensated than they were during the 
days of the draft. This is especially true for the highly skilled, 
well-educated personnel who fill the ranks of the U.S. military. 
However, over the past several decades, servicemember personnel costs 
have grown rapidly. In just the last 15 years, the average cost of an 
Active Duty servicemember has increased, in real terms, by over 50 
percent. This trend is unsustainable. Unless controlled, personnel 
costs will confront the Nation with a choice between an insignificant 
force and a significant debt.
    Increases in cash compensation and the cost of health care benefits 
have been prime drivers of rising personnel costs. But the military's 
reliance on compensation as its sole tool to incentivize recruiting and 
retention results from a personnel system too inflexible to provide 
servicemembers with incentives that might be just as, or more, valuable 
to them, but less costly to taxpayers.
    The Budget Control Act of 2011 dramatically increased this problem. 
Arbitrary budget constraints combined with a rigid personnel system, 
imposed even as the tempo of military operations abroad remains high, 
forced the military into a vicious cycle. With limited funds, the 
military reduced its end strength; with fewer troops available, each 
servicemember carries a heavier burden; as the difficulties of service 
grow, more incentives are needed to retain servicemembers; as options 
for meaningful incentives are sparse, bonus pay becomes more common; as 
more money is spent on compensation, less is available to grow the 
force.
Growing Civilian-Military Divide
    We fully recognize that the unique culture of the U.S. military is 
essential to its success, and the current personnel system contains 
many elements that are important to sustaining that culture. The 
Defense Department is not a private company or a nonprofit 
organization; it can and must demand that its servicemembers make 
sacrifices that are foreign to the civilian world. In fact, the ethic 
of sacrifice is part of what attracts so many outstanding people to 
service in uniform.
    However, the task force also believes that to recruit and retain 
the talent needed to address emerging threats, Services must attract 
Americans from all sectors in our society. This demands fundamental 
changes to some aspects of military life. Because a more-inclusive and 
dynamic labor force has emerged in the United States over the last 
seven decades, defense personnel policies should reflect fundamental 
socioeconomic changes. For example, many of today's military spouses--
who are both male and female--want, expect, and need to be able to 
pursue a career. The biggest obstacle to military spouse employment is 
the requirement to move every 2 to 3 years. Perhaps the military 
requirement of frequent relocations is of lower value to the Defense 
Department than retaining valuable servicemembers by allowing them to 
remain in one place. Additional factors like the rising rates of 
obesity, changes in education, and the demographics of society itself 
further illustrate the need to rethink how the military approaches 
personnel policy.
    The biggest mistake--indeed, the worst outcome for the Defense 
Department--would be to do nothing. Building on the work done in the 
last several NDAAs, this committee should take meaningful action to 
make fundamental personnel reforms in the Fiscal Year 2018 NDAA. 
Through bipartisan cooperation and leadership from public officials, 
the United States can ensure that its longstanding military advantage 
can endure well into the 21st Century.
                              the solution
    While military and defense-civilian personnel systems serve many 
purposes, and must meet varied goals, a handful of key outcomes are 
especially relevant in the increasingly complex national security 
environment. To ensure the Nation's continued national security and 
military advantage, defense leaders in the Congress and the Pentagon 
should design personnel policy with the goals of building a force that 
is:
    <bullet> Fully engaged by American society. The United States is 
fortunate to have an abundance of talent and experience across its 
diverse population. The personnel system must serve as a bridge--not a 
barrier--to accessing this talent, especially hard-to-find or in-demand 
capabilities. The military must be able to consistently acquire top 
talent, whether experienced or entry-level, and to retain that talent 
amid a competitive employment marketplace, even if those individuals 
are not well-suited, or do not wish, to progress toward command.
    <bullet> Adaptable to new threats as they arise. Because future 
national security needs are uncertain, personnel policy must be able to 
accommodate changing requirements. Rather than waiting years to train 
new troops, commanders should be given the tools to quickly find and 
use the capabilities they need to achieve their missions: more of one 
skillset, less of another, or entirely different capabilities, such as 
mastery of new technologies or familiarity with certain languages or 
cultures. Recently, the perennial answer to unexpected military needs 
has been to use special operations forces, which is an unsustainable 
long-term solution. The ``new normal'' national security environment 
requires the rest of the force to also develop the capability to 
succeed in unconventional missions.
    <bullet> Sustainable, both financially and culturally, for long-
term success. Regardless of the Defense topline, the military must meet 
its personnel needs efficiently. More importantly, at the same time, 
DOD must ensure that servicemembers and defense civilians are 
competitively compensated. Additionally, personnel policy must also 
support the personal lives of servicemembers. If the conditions of 
military life force servicemembers to choose between their family's 
well-being and a military career, the family will win and the military 
will lose access to a critical segment of the talent pool. Lastly, 
Congress must remove or significantly increase the Budget Control Act 
caps that have inhibited intelligent strategic decisions on Defense 
program growth and priorities.
    <bullet> Technically proficient. The skillsets required by the 
military will only become more technical as the national security 
environment becomes more complex. Whether developing new capabilities 
to confront the increasingly difficult challenge of defending the 
frontiers of space and cyberspace, applying new technologies and 
greater individual decision-making to existing military roles, building 
language skills and cultural knowledge, or maintaining expert-level 
trauma-care capabilities, these challenges are fundamentally personnel 
issues. A personnel system that cannot consistently build and retain 
these types of capabilities has failed, with profound implications for 
military readiness and national security.
    To achieve these desired outcomes, our report presents a 
comprehensive package of 39 bipartisan proposals to improve the 
effectiveness of military personnel policy. Taken together, the 
recommendations contained in this report aim to prepare the military to 
confront the threats of the future, while also keeping promises made to 
today's servicemembers and meeting the needs of military families. A 
Fully engaged, Adaptable, Sustainable, and Technically proficient 
(F.A.S.T.) military will ensure the future force is as strong as the 
one the United States has fielded for the last 70 years.
Immediate Actions:
    Our Task Force recommends five proposals that can and should be 
implemented in this year's National Defense Authorization Act.

    <bullet>  Expand lateral-entry authority to allow midcareer 
civilians to enter the military at higher ranks.
      Allow individuals with non-combat-specific skills (e.g., 
acquisition, cyber, finance, engineering, medical, law) to enter the 
military at higher ranks in the officer, warrant officer, and enlisted 
corps. Lateral-entry authority could reincorporate individuals with 
prior service who desire to reenter the military. Those who have 
acquired valuable skills after their military service could be allowed 
to rejoin at a higher rank. In previous wars, this avenue for lateral 
entry was frequently used. For example, during World War II, William S. 
Paley, the co-founder of CBS, was brought into the Army as a colonel to 
work in psychological operations using the broadcast medium. The Fiscal 
Year 2017 National Defense Authorization Act lateral-entry pilot 
program for cyber personnel should be expanded to cover more 
occupational specialties.

    <bullet>  Improve and synergize online military recruiting efforts 
by creating a cross-service common application and expanding web-based 
recruiting tools.
      Optimize recruiting by closing and consolidating some ``brick-
and-mortar'' recruiting offices to free up resources for a more robust 
online recruiting system. E-recruiting is a more effective way to 
appeal to a demographic that is more comfortable with digital processes 
and less likely to walk into a physical recruiting center. Current 
digital platforms are insufficient and disjointed. Active and Reserve 
components and individual Services use different systems for their 
officer and enlisted cohorts. The U.S. military fights as a joint, 
total force. Therefore, its recruiting efforts should be organized as a 
joint operation that integrates all components (i.e., Active, Guard, 
and Reserve). Too often, the different services and components are 
competing against each other for talent. This competition is 
inefficient and works against the military's total-force mantra.

    <bullet>  Enhance and expand the Selective Service System to 
include all young American adults.
      Create a gender-blind Selective Service System (SSS) that gathers 
more data about the unique skills and experiences of registrants. 
Important information gathered through this system could include 
language or cultural skills, educational qualifications, or other 
technical qualifications. This database should allow the military to 
more easily identify and focus specialized recruiting efforts on 
individuals with demonstrated high-demand skills and aptitude.
      Additionally, all Selective Service registrants should complete 
the Armed Services Vocational Aptitude Battery to expose millions of 
younger Americans to the possibility of military service.

    <bullet>  Create an online database to automate and increase 
servicemember influence over future military assignments.
      Personnel assignment systems, while prioritizing needs of the 
service and mission, should ensure that people are assigned to 
positions that best reflect their individual skills and talents. 
Assignments closely aligned to a servicemember's unique abilities are 
more likely to enhance individual and unit performance, in addition to 
serving as a strong retention tool.
      Therefore, we propose a pilot program within each service that 
provides servicemembers more influence over their future assignments 
and allows commanders greater input in staffing decisions. Each pilot 
would last at least 5 years and would encompass a range of career 
fields, including operational and administrative specialties. These 
pilot programs should be evaluated periodically for their impact on 
unit performance individual performance retention, commander 
satisfaction, servicemember satisfaction, and impact on the national 
security mission.

    <bullet>  Improve access to and quality of Defense Department-
provided childcare services.
      The Defense Department should take significant steps to increase 
access to childcare Department wide. First, to increase funding for 
child development centers (CDCs), the Services should have the 
authority to pay for CDC construction and renovation through their 
operations and maintenance accounts rather than through their military-
construction budgets. Furthermore, to address the ongoing staffing 
issues at CDCs, the Pentagon must take steps to streamline the hiring 
and retention process for CDC staff (especially for those transferring 
between duty stations) and reevaluate CDC staff compensation. Next, to 
increase access for families with complex employment schedules, the 
Department should explore options for increasing access to part-time 
and hourly childcare.
Long Term Reform:
    Aligning personnel policy with the threats facing the Nation and 
the changes in American society requires a strategic long-term reform 
effort. The Defense Officer Personnel Management Act only passed in 
1980 after several years of development and negotiation. A similar 
approach is needed today. As part of this long-term personnel reform 
effort, we recommend the following proposals:

    <bullet>  Replace predetermined, time-dependent promotions with a 
fully merit-based military promotion model.
      To increase the flexibility of the personnel system, the military 
should shift away from a promotion system that is heavily influenced by 
predetermined timelines. Rather, the personnel system should embrace 
greater consideration of merit when promoting officers and enlisted 
servicemembers. A merit-based model should rely more on the performance 
and experience of individual personnel and less on predetermined 
timelines.
      This recommendation might cause some individuals to be promoted 
sooner than normal. Some would likely be promoted later than current 
timelines. These are both desirable outcomes. The military will benefit 
if its most talented personnel, who meet the requirements for 
promotion, are promoted ahead of their peers. The military also 
benefits from allowing individuals more time to develop, to pursue 
education, or to build a greater level of technical expertise.

    <bullet>  Replace ``up-or-out'' promotions processes with a 
``perform-to-stay'' system.
      For officers, remove DOPMA and ROPMA field grade officer strength 
tables to allow the Services to extend the careers of valuable 
servicemembers who are not competitive for continued promotion. 
Additionally, we should allow individual servicemembers to voluntarily 
remove themselves from promotion consideration to continue building 
technical expertise. At the same time, these servicemembers could 
continue to strengthen their professional resumes to become more 
competitive for future promotions.
      For enlisted servicemembers, although there are few statutory 
limitations on their ability to continue serving, the Military Services 
have implemented policies that mimic the officer system of up-or-out. 
Service secretaries should use their authority to ensure valuable, 
high-performing enlisted members are not being forced out of the 
military just because they are not competitive or interested in further 
promotion.

    <bullet>  Replace the military pay table to ensure compensation is 
commensurate to increased responsibility and performance.
      Congress should direct the department to recommend a new pay 
table (to completely replace the existing pay table) that is based on 
rank (i.e., ``time-in-grade'') rather than on time (i.e., ``time-in-
service''). The pay table would include a base pay for each rank, 
incremental pay raises based on time served at that rank, and an 
additional incentive pay for certain occupational specialties to 
sufficiently compensate high-demand skills and experience. The final 
component of this pay table would be the new retirement system's 
midcareer retention bonus for selected personnel. The new pay table 
should be designed to keep overall compensation constant. As new 
personnel authorities are implemented, it is likely that the overall 
manpower profile of the force will change (i.e., lateral entry could 
yield more midlevel officers while also requiring fewer junior or 
senior ranking officers). This new time-in-grade-based pay table would 
facilitate efficiency, performance, and readiness improvements to 
promote a more-flexible force.

    <bullet>  Expand the use of warrant officer positions and create a 
technical, non-command career track for officers and enlisted 
personnel.
      Direct all services to use warrant-officer ranks to retain 
technical expertise. Additionally, this reform should also allow 
officers with needed technical skills to remove themselves from the 
command pipeline by pursuing alternative promotion pathways or 
transferring to warrant-officer ranks. These alternative promotion 
pathways would allow officers to continue advancing up to a certain 
point based on technical knowledge and expertise, without having to 
fill a command billet along the way. For example, health care providers 
should have access to a career track that enables skilled clinicians to 
continue to receive promotions and raises while delivering patient 
care, instead of being forced to pursue command and leadership 
assignments. Promotion criteria for these alternative pathways and 
expanded warrant-officer positions should be relevant to the job 
duties.

    <bullet>  Create a continuum of service by making it easier to 
repeatedly transition between Active, Guard, and Reserve components.
      Combine the Defense Officer Personnel Management Act (DOPMA) and 
the Reserve Officer Personnel Management Act (ROPMA) into one unified 
officer-management statute. The Services should eliminate the 
requirement for different officer commissions and enable greater 
permeability between Active and Reserve components.
    <bullet>  Other important changes include the following:
      Create a culture of permeability that supports a continuum-of-
service paradigm; Provide greater opportunities to transition among the 
Active, Guard, and Reserve components; make Reserve component service 
an option throughout a military career; and, finally, encourage those 
servicemembers leaving Active Duty to consider Reserve component 
service by extending the reserve position vacancy window beyond the 
date of separation from Active Duty.
                      the f.a.s.t. force in action
    Our recommendations, if implemented, would help the military solve 
some of its most pressing personnel challenges. As it relates to the 
fighter pilot crisis, instead of relying on an ineffective and 
expensive retention bonus to stem the loss of experienced aviators, we 
propose giving them more of what they want, which is additional time in 
the cockpit. Individuals with highly desirable cyber skills would be 
allowed to enter the military with advanced rank commensurate with the 
value of their experience. By offering flexible career models, the 
military can ensure that it does not force people to choose between 
uniformed service and private sector experience.
    New merit-based promotion policies would allow the highest 
performing servicemembers to move up the ranks more quickly, while also 
allowing other servicemembers to develop greater depth of experience in 
technical specialties like space, cyber, and trauma care.
    Lastly, our recommendations would finally allow the military to 
bend the cost curve for military personnel without breaking our promise 
to those who volunteer to serve. By offering meaningful incentives and 
reforming the traditional 20-year military career, the Defense 
Department can ensure that it continues to attract highly capable 
personnel, while at the same time offering competitive compensation and 
benefits to the men and women who protect our nation.
                               conclusion
    A key strength of the U.S. Armed Forces is its unique culture, 
characterized by selfless service, integrity, and sacrifice. None of 
our recommendations are meant to supplant the values that make the 
military the most well-respected public institution in the eyes of the 
American people. We recognize that good policy is necessary, but not 
sufficient by itself, to achieve a high-performing personnel system. 
High-quality leaders are required to provide crucial mentorship and 
guidance to the troops under their supervision.
    Our recommendations would augment the strengths and minimize the 
weakness of the current personnel system in service of the Nation's 
security needs. Congress should approach Defense Department personnel 
reform with the same mindset. By focusing personnel reforms on 
achieving desired national security outcomes, we can both honor the 
promises made to today's military and improve the performance of the 
force for the future.

    Senator Tillis. Thank you.
    General Punaro?

  STATEMENT OF MAJOR GENERAL ARNOLD L. PUNARO, USMCR (RET.), 
    BIPARTISAN POLICY CENTER TASK FORCE ON DEFENSE PERSONNEL

    General Punaro. Mr. Chairman, Members of the subcommittee, 
I have a supplementary lengthy statement that I would ask just 
be submitted for the record.
    Senator Tillis. Without objection.
    General Punaro. Two quick points. I got my start as a young 
staffer here in the Armed Services Committee in the early 1970s 
working for this subcommittee when my boss, Senator Nunn, was 
the chairman. This subcommittee, in my view, is the most 
important one on the Senate Armed Services Committee. I was 
here 24 years, 14 years as either the minority or the staff 
director, because it affects every single thing in our 
military, the men and women, the families, retirees, and the 
people in our military are the heart and soul of the military. 
That's what makes it the world's finest military, and this 
subcommittee has always been ahead of the Pentagon. This 
subcommittee had to save the volunteer force from going under 
in the late 1970s and early 1980s--John Tower, John Stennis, 
Sam Nunn, John Warner.
    When John McCain and John Glenn were at the helm of this 
subcommittee, they kept from breaking the force when we drove 
down a million people at the end of the Cold War. This 
subcommittee, when the hot war started after 9/11, made sure 
that our military and the families had the support they needed, 
and they've always been ahead of the Pentagon. If you wait on 
the Pentagon to basically come in for all the changes that are 
needed, they won't get done. We're at that same standpoint 
today.
    The other thing that I would say is they've got the great 
staff on the Personnel Subcommittee, and I'll give you a pretty 
good example of why we need to make the changes. I see in the 
back of the room the Honorable Robert Wilkie, an individual 
I've had the privilege of knowing and working with for decades. 
He served on Active Duty, served in the Reserves, worked on the 
personnel staff, worked on the committee staff, went back on 
the personnel staff, served in high-level positions in 
government, served in industries. Guess what, Members of the 
subcommittee? If he'd been under the strictures of Defense 
Officer Personnel Management Act (DOPMA), Reserve Officer 
Personnel Management Act (ROPMA), he wouldn't have been able to 
have that career.
    That's the kind of flexible career, Senator Gillibrand, 
that you talked about that we need in the service. We need to 
make it easy for people like Mr. Wilkie and others, others on 
the staff who have served in the military, to come in and out 
and have different positions, learn more, go to ever-increasing 
periods of responsibility, and we don't have that today because 
today's manpower and personnel systems basically assume we want 
every single person that joins to be the chairman of the Joint 
Chiefs, and so we manage them that way.
    That's not what industry does today. This will not keep our 
volunteer force, the world's finest military, 10 years from 
now. The changes you have to make, some are immediate, but most 
of them you'd have to phase in over a 10- to 15-year period. 
That's why the subcommittee has got to get out in front of the 
Pentagon.
    Thank you.
    [The prepared statement of General Punaro follows:]

     Prepared Statement by Major General Arnold Punaro, USMC (Ret.)
    Chairman Tillis and Ranking Member Gillibrand and members of the 
committee: Senators Ernst, Graham, Sasse, McCaskill, and Warren, I want 
to thank you for the opportunity to appear today with Senator Jim 
Talent and Ms. Kathy Roth-Douqet to discuss the work of the Bipartisan 
Policy Center's Task Force on Defense Personnel in producing its report 
entitled Building a F.A.S.T. Force: A Flexible Personnel System for a 
Modern Military. I was honored to work with them and many others on 
this very important subject.
    The report produced by the Task Force presents its assessment of 
the Nation's imperative to improve DOD's defense personnel systems to 
better meet ever changing future national security needs and our 
country's evolving service-age population. It offers a comprehensive 
package of 39 bipartisan proposals to improve the effectiveness of 
military personnel policy. As a whole, these recommendations aim to 
prepare the military to confront the threats of the future while also 
keeping promises made to today's servicemembers.
    I appear here as a private citizen and a member of this Task Force 
and do not represent the Secretary of Defense Reserve Forces Policy 
Board which I chair, nor the Defense Business Board or National Defense 
Industrial Association on which I served. I believe, however, that my 
personal and professional experience is relevant to these matters. I 
have served 24 years with the Senate Armed Service Committee with 14 of 
those years as the staff director supporting the Chairman and the 
Committee as well as 35 years of commissioned military service in the 
U.S. Marine Corps. I chaired the Independent Commission on the National 
Guard and Reserves from 2005-2008 which Congress established to assess 
the future roles of the Reserve components. As a Marine Major General, 
I also served on the Reserve Forces Policy Board (RFPB) for 5 years 
prior to retiring in 2003, and I have served as the Chairman of the 
newly structured independent RFPB under four Secretaries of Defense 
since 2011.
    I would like to personally commend the members of this subcommittee 
for the work they have done to improve the lives of our soldiers, 
sailors, airmen, marines, and coastguard. The Fiscal Year 2017 National 
Defense Authorization Act and the personnel reform initiatives 
contained within it are just some of the examples of how you have led 
the way in tackling tough issues and making much needed reforms. I can 
speak from personal experience that this subcommittee and its House 
counterpart have stayed in front of the Pentagon for decades.
    Many of the challenges the Department of Defense (DOD) faces will 
take years to address. We can rest assured, though, that despite the 
strategic challenges throughout the world, the United States military, 
as the bedrock of national security, protects our citizens and 
interests, preserves regional stability, renders humanitarian 
assistance, and imparts stability to the world. The demands on our U.S. 
military personnel have never been greater, and our soldiers, sailors, 
airmen, and marines form the foundation of our national military power. 
An outdated personnel system, rising personnel costs, and the growing 
divide between our military members and the Nation they serve pose 
significant challenges to recruiting and retaining the most talented 
people necessary to meet our country's ever-changing security needs.
                the personnel system--time for a change
    The combination of statute, regulation, culture, and tradition 
which forms the Department of Defense's Personnel System is long 
overdue for reform. Defense personnel management statutes, policies and 
information systems have not kept pace with demographic or 
technological changes. While core U.S. national security interests have 
largely remained constant in the quarter-century since the end of the 
Cold War, the threats arrayed against those interests have changed 
dramatically. Today's global security environment is more complex and 
unpredictable than ever before. This environment should be the primary 
factor for policy makers when deciding how to reform the personnel 
system.
    Personnel management reform should include a strategy for a modern 
military workforce that is diverse, technologically skilled, and 
provides flexible career opportunities. This new system must be viewed 
by potential entrants as a desirable and competitive career option; 
attracting high quality recruits and maintaining the best and the 
brightest for advancement and leadership of the Nation's Military 
Services. It must develop professionals, promote institutional values, 
embrace diversity, and maintain key elements of service culture. It 
must produce a force that both represents and is connected to the 
population it protects. The system must be fair with transparent 
policies, practices, and processes. It should be cost effective, 
produce ready servicemembers, and be seamlessly integrated across 
components. It must be much more flexible and incorporate world-class 
business practices in terms of assignments, advanced schooling and 
training, family considerations, and non-traditional opportunities. 
Ultimately, our Armed Forces must remain capable of deploying rapidly 
and sustaining military power in response to a variety of threats at 
home and abroad to win the Nation's wars, support our allies, and 
defend our interests.
    The Defense Officer Personnel Management Act of 1980 (DOPMA) and 
its follow-on Reserve component counterpart, the Reserve Officer 
Personnel Management Act of 1994 (ROPMA), updated the original 1947 
personnel policies in place for much of the Cold War. Three of the 
things Congress hoped to accomplish with DOPMA included providing a 
predictable and uniform promotion system, standardizing career lengths 
across the Services, and ensuring proper proportionality of senior 
officers through the force. The first step to essential modernization 
of the personnel system is to provide flexibility by making bold 
statutory reforms to DOPMA and ROPMA. I had the opportunity to work on 
DOPMA with my boss, Senator Sam Nunn, as a relatively new Senate 
staffer in the 1970s. He chaired the Manpower and Personnel 
Subcommittee when DOPMA was revised over a 4 year period in the late 
1970s. By then, the system which was developed right after World War II 
had been in place almost 25 years and we knew some changes had to be 
made as the military adjusted to the newly formed All-Volunteer Force. 
We also knew then that some of the policies we enacted would need to be 
revisited in the future. However, there have been very few significant 
changes in almost 40 years, and some view the current system as an 
inflexible Cold War-era relic. Our current personnel policy is complex 
and burdensome to not only the individual military member and his or 
her family, but also to the organization.
    Unfortunately, there were some unintended consequences resulting 
from DOPMA/ROPMA implementation, one of which is the ``up-or-out'' 
promotion system. Officers generally have two opportunities for 
promotion at each grade. Those who twice fail are required to separate 
from the service, retire if eligible, or continue to serve until 
retirement in their current grade with a waiver with no chance of being 
promoted. Subsequent legislation, such as Goldwater-Nichols, created 
requirements for officers to accomplish specific items primarily 
related to joint service--check certain ``boxes''--at certain times 
throughout their career to remain competitive. This time-based career 
management system created an officer corps with a lack of professional 
diversity in terms of career experiences. It also heavily discourages 
servicemembers from pursuing alternative career paths and often 
penalizes non-conforming career choices. ``Up or out'' instead pushes 
servicemembers out of the force when they are most experienced. A 
competency-based career management system, organized around the mastery 
of knowledge, skills, and abilities, would encourage more flexible 
career paths, thereby permitting longer assignments, greater 
opportunity for graduate education, time-outs for family 
responsibilities, the lateral entry of skilled professionals, and 
longer overall careers. Such changes better reflect the new career 
patterns in the private sector and offer a more competent and seasoned 
force with less turnover and attrition.
    From 2005 to 2008, I was fortunate to chair the independent 
Commission on the National Guard and Reserves established by the 
Congress and we addressed these very issues. The Commission recommended 
that Congress implement a more flexible promotion system based on the 
achievement of competencies. Under this new system, the timing of and 
opportunities for promotion should vary by competitive category (career 
field), depending on service requirements. \1\ The Task Force report 
also makes the correct point that both the up-or-out nature of the 20-
year career and the limited ability for the military to quickly meet 
manpower needs create inefficiencies, resulting in higher costs. \2\ As 
RAND economist Richard Cooper testified to Congress, the only way to 
truly control costs for the professional military is to change the up-
or-out promotion system to selectively reduce personnel turnover and to 
change accession requirements. \3\
---------------------------------------------------------------------------
    \1\ Commission on the National Guard and Reserves: Transforming the 
National Guard and Reserve into a 21st Century Operational Force, 
January 3 L 2008, 19.
    \2\ Task Force on Defense Personnel, March, 2017, 25.
    \3\ Bernhard Rostker. I Want You' The Evolution of the All-
Volunteer Force. RAND Corporation. 2006. 365. Available at: http://
www.rand.org/pubs/monographs/MG265.html.
---------------------------------------------------------------------------
    Merging DOPMA and ROPMA into a single system would create a 
personnel system best suited for today's military ``Total Force.'' The 
Total Force includes all organizations, units, and individuals that 
provide the capabilities to support the Department of Defense in 
implementing the national security strategy. It encompasses the regular 
Active component members, the Reserve components, which includes the 
National Guard, civilians, members of the Individual Ready Reserve, and 
contractors. In implementing policy reforms for the Total Force, the 
Reserve components must certainly be included. They have transformed 
from a seldom-used Cold War Strategic Reserve in the 1970s and 1980s, 
to an indispensable operational force that is frequently and routinely 
employed to the meet the Nation's defense needs. The Department's 
culture needs to change to embrace Active and Reserve members, as well 
as civilian employees as members of the same team--not separate 
competing teams. To that end, the Department should encourage and 
incentivize continued service in the Reserves to preserve talent from 
the Active component that would be otherwise lost through reductions or 
routine transitions from the Active force.
    The Department should encourage and facilitate a seamless 
transition between the Active and Reserve components and remove 
barriers impeding it. As the military strives to become more adaptable 
and to better respond to an unpredictable security environment, it 
should ensure the ability to quickly access talent in its Reserves. 
Reserve component service should be an option throughout a military 
career as a means of preserving costly investments in training and 
experience.
    To achieve this level of Active-Reserve permeability, Federal law 
must be changed. Current law requires officers who desire to transition 
between the Active and Reserve component to gain a separate Reserve 
officer commission, through a process known as ``scrolling.'' This 
process takes up to 6 months and likely discourages many highly 
qualified personnel from continuing to serve in the Reserves. To 
facilitate the transition, Congress should amend current statutes to 
create a single type of commission, a ``universal appointment,'' in 
lieu of the current regular and Reserve commissions. Our system must 
provide greater opportunities to transition between the Active, Guard, 
and Reserve components. Only after creating this culture of 
permeability and support of a continuum-of-service paradigm will we be 
able to recruit and retain the best talent for our military.
    In addition to the key initiatives previously mentioned, the 
Department should implement several other reforms to create a personnel 
system that improves the career management, permeability, and 
flexibility of service options, and makes the best use of civilian and 
military skills found throughout the Total Force.
    The Department should create an integrated Total Force pay, travel, 
and personnel management system that is modernized and accessed through 
mobile technology. This system will increase permeability by enabling 
streamlined transitions between components. Additionally, it will 
improve the ability of Reserve component members to manage their 
careers by enabling seamless movement of all administrative and other 
records between components/services. Both the Army and the Air Force 
are currently working to field Integrated Pay and Personnel Systems--
Army (IPPS-A) and Air Force Integrated Pay and Personnel System (AF-
IPPS)--which could serve as a model for the other Services. Earlier 
attempts to field the same system DOD wide-DIHMRS-failed after 
significant costs.
    Some other personnel reforms may include employing best practices 
from the private sector to advertise, apply for, review, and select 
best qualified candidates for assignment to positions across the Total 
Force. In order to provide access to the deepest talent pool possible, 
it is also important to ensure all members have opportunities to 
compete for special assignments or educational opportunities at pivotal 
times throughout their careers without fear of their career being 
negatively affected.
    The Services are experimenting, on a very small scale, with 
sabbatical programs to allow servicemembers on Active Duty to ``take a 
knee'' for educational or other personal reasons. The Army's Career 
Intermission Pilot Program is already seeing the first return of 
soldiers to the force who took time off It is now time to broaden the 
program and allow those in uniform to consider it as simply another 
path possible on the way to a more fulfilling military career. These 
opportunities should be available to all servicemembers in order to 
meet the changing demands in their personal lives, for full-time 
educational opportunities, or family and employment obligations. 
Members should have the ability to pause promotion clocks during 
periods where they would be less available for military service. During 
periods where personal needs or civilian professional requirements make 
military service difficult, pausing promotion clocks would prevent 
members from being forced out due to lack of competitiveness for 
promotion and allow them to continue service once these demands 
subside.
    Further, the Reserve component has great potential to contribute in 
specialties that are more immediately transferable from civilian 
occupations, such as health care, public affairs, and cybersecurity--
yet current policy doesn't maximize this potential. Especially after 
considerable resources are spent training servicemembers, the military 
is missing an opportunity when only a small percentage choose to remain 
in the Reserves following completion of initial Active Duty service.
    Let's take the cyber mission as an example. As the Department of 
Defense builds the cyber force, use of these valuable skills developed 
by civilian industry, at little to no cost to the government, can 
provide immense benefits to the Department. The Reserve Forces Policy 
Board formed a Cyber Task Group in 2013 to study the best use of the 
Reserve component in this arena, and they made several key 
recommendations. One of their recommendations was that Reserve 
component personnel be included in the development of Cyber Mission 
Force requirements which would reduce long-term costs, while leveraging 
civilian-acquired skills, service-invested training and experience, and 
enhancing continuity and longevity. The study recommended the Secretary 
of Defense direct a Total Force approach toward manning the Cyber 
Mission Force. The study also recommended U.S. Cyber Command and the 
Services review niche cyber needs outside the Cyber Mission Force 
construct to take advantage of the full range of civilian-acquired 
skills within the Reserve component. \4\
---------------------------------------------------------------------------
    \4\ Reserve Forces Policy Board. Improving the Total Force: Using 
the National Guard and Reserves, RFPB Report Fiscal Year 2017-01, 
November 1, 2016, 56-57.
---------------------------------------------------------------------------
    As you know, the Fiscal Year 2017 National Defense Authorization 
Act authorizes the Secretaries of the Military Departments to conduct 
pilot programs to recruit and confer original appointments to qualified 
individuals as commissioned officers in a cyber specialty. \5\ This is 
certainly a step in the right direction, but it does not include 
members of the Reserve component. I encourage you to expand this 
authorization. If the Reserve component is utilized effectively, it can 
be a valuable source of uniformed talent, with the added benefit of 
valuable private-sector experience, oftentimes at a lower cost. This 
concept benefits the nation just the same if military members leave the 
Active component to pursue career goals in the private sector, yet 
remain in service in the Reserve component.
---------------------------------------------------------------------------
    \5\ S.2943, Sec 509.
---------------------------------------------------------------------------
                         rising personnel costs
    Our domestic fiscal environment is just as challenging as our 
complex and unstable security environment. Budget impacts created by 
the 2011 Budget Control Act (BCA) and sequestration have resulted in 
deep cuts year after year to U.S. military readiness and capabilities. 
Since passage of the BCA, security conditions have changed and are 
dramatically less stable than they were in 2011. Military personnel 
systems must be financially sustainable for the department and 
taxpayers, and must complement-not displace-other national security 
needs. A high quality, professional force must be competitively 
compensated, but inefficient compensation costs cannot be allowed to 
force out other military necessities. Honoring the commitments made to 
current servicemembers, military retirees, and their families is a 
military necessity and a moral obligation for policymakers. However, it 
is also imperative to ensure that future generations of servicemembers 
are competitively compensated while also having the best training and 
equipment available.
    By many accounts, the All-Volunteer Force (AVF) has been a great 
success. It has provided the military with high quality personnel and 
has proven effective in both peace and war. Military leaders, 
politicians and the American people themselves all prefer it to the 
alternative. It is here to stay. But it is expensive and the cost 
growth trends are unsustainable on their current path for both current 
and deferred compensation.
    Former Secretary of Defense Thomas Gates, Chairman of the 
Commission in 1970 that recommended the All-Volunteer Force, warned the 
following three fundamental changes were needed to ensure 
sustainability of the AVF: First, reform the up-or-out promotion 
system; second, eliminate the cliff retirement system, which only 
benefits those who stay 20 years and then incentivizes them to leave 
right away; and third, change pay and compensation from one of tenure 
and longevity to a pay system that rewards skills and performance. 
Forty-seven years later, we've touched only a few of those items, so it 
should not surprise us that former Secretaries of Defense, such as 
Gates, Panetta, and Hagel, and many former senior military leaders, 
like General Ron Fogleman and Admiral Gary Roughead have all stated 
that the ``all in'' costs of the AVF are unsustainable. \6\
---------------------------------------------------------------------------
    \6\ National Commission on the Future of the Army, (July 16, 2015) 
(written testimony by Major General Arnold Punaro, USMCR (Ret.)).
---------------------------------------------------------------------------
    The independent Congressional Budget Office and Government 
Accountability Office have released a number of analytical reports 
documenting this fact, as have many members of the think tank 
community. A definitive work is the interim report by the Military 
Retirement and Modernization Commission. Highly overlooked, this report 
was published in June 2014 and consisted of over 300 pages of the full 
costs related to running the All-Volunteer Force both inside and 
outside DOD. They avoided any opinions, and stated just the facts, 
which are inescapable: the all-in costs are well over $410 billion per 
year; well in excess of the 30 percent of the DOD budget benefits-based 
lobby groups are fond of quoting. \7\ This does not include the 
staggering $1 trillion in unfunded liabilities for military retirees; 
today, we have over 2.4 million retirees compared to the 1.1 million on 
Active Duty. There is a consensus among defense experts from the left 
and right that we need to address these adverse trends. \8\
---------------------------------------------------------------------------
    \7\ Military Compensation and Retirement Modernization Commission, 
Final Report, January 2015.
    \8\ Punaro. NCFA Testimony
---------------------------------------------------------------------------
    Military personnel costs have increased sharply over the past 15 
years. Since 2001, pay per Active Duty servicemember has grown over 80 
percent (in current year dollars, or about 50 percent in constant 
dollars). Military pay has increased 40 percent more than civilian pay 
since 2000 and enlisted servicemembers are now paid more than 90 
percent more than civilians with comparable education and experience 
make (83 percent more for officers). Non-cash benefits cost a further 
$48 billion a year--mostly for health care, but also for commissaries, 
housing, and family programs. \9\
---------------------------------------------------------------------------
    \9\ Punaro, NCFA Testimony
---------------------------------------------------------------------------
    One way DOD has adapted to these higher costs is by relying more on 
the Guard and Reserves, a true bargain for the taxpayers in terms of 
cost. Before the Vietnam War, the Guard and Reserves comprised only 26 
percent of the Total Force. With the end of the draft and the 
establishment of the Total Force policy in the early 1970s, the 
proportion began to rise. By the end of the Cold War, when the full 
cost of sustaining the All-Volunteer Force was becoming apparent, the 
Guard and Reserves comprised 36 percent of the Total Force. In fiscal 
year 2015, the proportion grew to 38 percent. \10\ In some services, 
such as the Army, the Reserve component consists of roughly 50 percent 
of the Total Force.
---------------------------------------------------------------------------
    \10\ Reserve Forces Policy Board, Improving the Total Force: Using 
the National Guard and Reserves, RFPB Report FY17-0 1 November 1, 2016, 
18.
---------------------------------------------------------------------------
    As the Department faces fiscal challenges from internal cost growth 
and external budget pressures, the question arises whether to continue 
this long-term trend can be sustained. That requires an assessment of 
relative costs and capabilities for Active Duty, Guard and Reserve 
personnel.
    All analyses show that Guard and Reserve forces cost much less in 
peacetime. At the individual level, guardsmen or reservists cost 15 
percent (according to GAO) or 17 percent (according to the National 
Commission on the Structure of the Air Force) of comparable Active Duty 
personnel.
    However, the relative cost increases when full time support, 
equipment, and operations are added. For ground units, analyses found 
that Guard and Reserve forces cost the following proportion of Active 
Duty forces:
    <bullet>  Congressional Budget Office: 30 percent
    <bullet>  RAND: 23-25 percent
    <bullet>  DOD's Total Force Policy Report to Congress: 25-26 
percent
    <bullet>  Commission on the National Guard and Reserves: 23 percent
    <bullet>  Reserve Forces Policy Board: 22-32 percent (all 
functions, not just ground)
    These standard comparisons capture pay, unit costs, and some 
benefits. However, they leave out benefits that significantly increase 
the Active Duty costs: PCS, commissaries, family housing, day care, 
health care, dependent schools, and parts of retirement, as well as 
costs borne by the Departments of Labor, Education, Treasury, and 
Veterans Affairs. \11\
---------------------------------------------------------------------------
    \11\ Punaro NCFA Testimony
---------------------------------------------------------------------------
    The Reserve Forces Policy Board has shown that these benefits add 
hundreds of thousands of dollars to the annual costs of one full time 
Active Duty soldier. Some have argued that these benefits should not be 
considered compensation, but are incidental to military life. I 
disagree. These are services that civilians and reservists also use but 
must pay for themselves. Further, like compensation, these benefits 
exist to help recruiting and retention; if they do not, then they 
should be eliminated. At the very least, we should agree with the 
RFPB's recommendation that DOD needs to assess and better understand 
these costs so future manpower analyses can be informed by accurate 
cost data.
    One area of success in utilizing the Total Force and reducing 
overall costs while increasing efficiency is the U.S. Air Force and 
U.S. Navy's successful integration of their Reserve component forces as 
associate units and blended units through shared Active component and 
Reserve component platforms. Under these concepts, a Reserve component 
unit aligns and co-locates with an Active component unit in order to 
utilize their platforms; or, conversely, an Active component unit 
aligns and co-locates with a Reserve component unit in order to utilize 
their platforms. This model of Associate Units and Blended Units with 
shared platforms has been successfully tested and proven by the Air 
Force and the Navy during Operation Enduring Freedom and Operation 
Iraqi Freedom. By combining Active component and Reserve component 
capabilities into multi-component units, there is potential for large 
cost savings and increased readiness within the Reserve component 
operational force due to an increase of Active personnel in the units. 
Alternatively, there should be enhanced opportunities for Guard and 
Reserve personnel to serve on Active Duty staffs and in key positions 
that are traditionally held by Active personnel to help prepare them 
for senior assignments. This would also create a larger pool from which 
to select senior Reserve component leaders.
    Another concept would increase the numbers of Active component 
military members serving in Reserve component units (under the NDAA 
1992 instituted Active Component / Reserve Component Title 11 program). 
History suggests that title 11 programs have never been fully manned. 
Additionally, the title 11 program was not highly regarded as career 
enhancing--particularly for O-6s competing for General Officer/Flag 
Officer promotion. Therefore, in order to have better integration in 
the Total Force, measures should be taken to make these assignments 
attractive. As an example, the USMC Reserve's Inspector Instructor 
Program could serve as a model for the other Services to utilize as a 
Title 11 Reserve component integration tool.
    In this fiscally constrained environment, it is also essential that 
we maintain an Operational Reserve. An Operational Reserve provides 
ready capabilities and capacity that are accessible, routinely utilized 
on a predictable basis, and fully integrated for military missions that 
are planned, programmed, and budgeted in coordination with the Active 
component. \12\ This was one of the fundamental issues the Commission 
on the Guard and Reserve was asked to study. I was a skeptic going into 
this task-I knew the difficulties associated with the changes in 
policies, budgets, and laws that would be needed. After two and a half 
years of study we came down fully in support of the Operational Reserve 
as supported by DOD. I am even more convinced now that maintaining an 
Operational Reserve is essential. This does not mean the balance and 
mix of the Total Force should remain static and conform to the current 
plans, or that every unit can always be at full-combat readiness at all 
times. But an appropriate mix is essential.
---------------------------------------------------------------------------
    \12\ Reserve Forces Policy Board. Improving the Total Force: Using 
the National Guard and Reserves. RFPB Report FY 17-01, November 1, 
2016, 34.
---------------------------------------------------------------------------
    The Nation can ill-afford to ignore the rich capabilities of the 
National Guard and Reserves or the lessons learned and experience 
gained over the last 15 years of combat and other operations. Reserve 
component members bring unique capabilities and professional expertise 
to the Total Force gained through years of experience in the civilian 
sector. The Department must learn to better exploit this expertise 
going forward. Rich repositories of talent reside in the Reserve 
component that is cost-prohibitive to develop in the Active component 
(i.e. doctors, nurses, lawyers, computer analysts, cyber experts, 
engineers, etc.). After enduring a period of significant force 
structure reductions and budget cuts, continued investment in a strong 
National Guard and Reserve Force provides numerous benefits to the 
Total Force and is essential in achieving U.S. national security 
objectives going forward. It is equally vital that senior leaders 
understand the importance of, and define specific roles for Reserve 
forces in future strategic and operational plans.
             bridging the growing civilian-military divide
    The growing civilian-military divide cannot be ignored. A key 
component in looking at this issue is the Abrams Doctrine, first 
articulated by the legendary Army leader General Creighton Abrams. That 
doctrine is just as relevant today as it was coming out of the divisive 
Vietnam War: the Army should not go to war unless the Nation goes to 
war, and the Nation goes to war only if the Guard and Reserve are 
mobilized to join the fight. \13\
---------------------------------------------------------------------------
    \13\ Punaro NCFA Testimony.
---------------------------------------------------------------------------
    As a relatively new Senate staffer in 1973 with a tour as a Marine 
infantry platoon commander in Vietnam in 1969-1970, I had a chance to 
meet General Abrams when he came to see my boss, Senator Sam Nunn. 
General Abrams outlined to Senator Nunn how to maintain a powerful Army 
as the size of the Active Army was decreasing since the U.S. combat 
role in Vietnam was drawing down. 1973 also marked the first year the 
All-Volunteer Force came into effect. Abrams embedded a relationship 
between the Active and Reserve components within his new force 
structure so close that it would be impossible to employ the Active 
Army in major conflicts without relying on the Guard and Reserves. And 
he ensured, as the Active force was drawn down, that the Army's combat 
power was increased. He made the Guard the combat Reserve of the Army 
and placed significant combat support and combat service support 
capabilities in the Army Reserve. Secretary of Defense Melvin Laird 
used this philosophy to create the Total Force policy implemented by 
Secretary of Defense Jim Schlesinger. It has proven incredibly 
successful.
    Before I met General Abrams, I had no intention of going into the 
Marine Corps Reserve-the Reserves were not viewed with the same 
prestige in the 1970s as they are today. But his vision of their 
importance convinced me to join. However, the capabilities and the 
cultural barriers did not change overnight, and only took place after 
the call-up of the Guard and Reserve in Desert Shield and Desert Storm, 
the increased use of the Guard and Reserve during the 1990s, and the 
over 945,000 servicemembers that have been mobilized since 9-11. \14\ 
General Abrams' vision has now been proven correct many times over. The 
country requires a powerful ground force, and the Total Force Army is 
embedded in the fabric of our Nation from its revolutionary roots, and 
this same doctrine applies to all of our Reserve components.
---------------------------------------------------------------------------
    \14\ OASD (Force Readiness) monthly report, April 20, 2017.
---------------------------------------------------------------------------
    Many of you may have seen the change of responsibility between 
Chief of the National Guard Bureau General Lengyel and General Grass in 
August. I was present for that really inspiring event. I was struck by 
the comments of then Secretary of Defense Ash Carter. The Secretary 
said, ``Today 's Guard is battle tested--an agile, flexible, deployable 
force wit h combat experience and a broad range of skills gained both 
on the battlefield and in civilian life. The National Guard is a 
critical component of our total force, bringing to bear the experience 
and skills of our citizens warriors wherever and whenever needed to 
confront the challenges of a complex world.''
    This is a powerful statement from the then civilian leader of the 
world's largest and most complex organization, with over 3 million 
employees, including 1.3 million Active Duty personnel and 818,000 
Guard and Reserve, over 5,000 facilities on over 30 million acres of 
land worldwide, and an annual budget of over 580 billion dollars.
    Carter went on to say: ``The more deeply integrated the Guard 
becomes in all facets of planning and execution, the better prepared 
the Nation becomes. The presence, skill and readiness of citizen 
warriors across the country give us the agility and flexibility to 
handle unexpected demands, both at home and abroad. It is an essential 
component of the total force and a lynchpin of our readiness.'' Let me 
repeat that--the lynchpin of our readiness . . . and they live in 
communities throughout this great country.
    In addition to members of the Guard and Reserve being an ever-
present fixture in our communities, there are other opportunities to 
integrate military members back into society after their Active service 
is complete. To partially address the issue, Syracuse University, in 
partnership with DOD, the Schultz Family Foundation, and the private 
sector, is participating in a job placement and training pilot program 
at Joint Base Lewis-McChord and Camp Pendleton. They will launch 
similar initiatives at 16 additional military installations over the 
course of the next two years. The pilot program initiative is a step 
forward. However, a more comprehensive program needs to be developed 
that will provide a ``one stop shop'' for transition, ease military 
members and their families into civilian life, and help to retain hard-
won combat experience and skills in the Total Force.
    Military members are recruited and enter service from the 
communities in which they grew up and went to school. Members often 
return to these locations upon completing Active service and many 
remain affiliated with the military by serving in a Guard or Reserve 
unit or by joining the Individual Ready Reserve. Others leave the 
military entirely and enter our Veteran ranks.
    The current transition process begins and ends at their last Active 
Duty location, which is very rarely in the community from where they 
came or where they intend to live and work. While transition programs 
have been improved, they don't really cover transitions beyond 
discharge and are primarily focused on pre-discharge preparations. As a 
result, separating servicemembers end their service in one location and 
must abruptly begin new lives with little or no coordination between 
their separation points and their ultimate home communities.
    In order to provide a more holistic, coordinated transition and 
promote the well-being of our members, families, and communities, DOD 
should integrate and facilitate collaboration of all of the government 
resources that are geared toward the transition process. This 
recommendation was outlined in the April 2012 Report of the Reserve 
Forces Policy Board on Avoiding Past Drawdown Mistakes to Enhance 
Future Total Force Capabilities. In this report, the RFPB recommended 
the development of long-term ``one stop shop'' Reserve community 
transition centers, utilizing existing, and well-established programs 
in community facilities throughout the country. \15\
---------------------------------------------------------------------------
    \15\ RFPB Report, 63.
---------------------------------------------------------------------------
    This recommendation could be executed as Military Entrance 
Processing Stations (MEPS) ``in reverse'' that would serve as 
transition facilities where servicemembers would complete the 
separation process while experiencing a positive hand-off from the 
military to their civilian communities. When service personnel first 
leave their communities to begin their military service, they enter 
service at a MEPS.
    When they leave the military, they should transition at a 
community-based location where all government agencies and community-
based organizations are present. These stations would optimally be 
established in or collocated with existing Guard armories and Reserve 
centers throughout the United States, of which there are 4,542. In 
addition, the Guard and Reserve have more than 160,000 full-time people 
already supporting these centers. This whole of government, whole of 
society approach would provide direct links to employers, educational 
and technical training institutions, local medical resources, Veterans 
Service Organizations, local Chambers of Commerce, Departments of Labor 
and Education representatives, and the full range of community support 
agencies available to transitioning servicemembers and their families. 
Embedding these facilities in Guard armories and Reserve centers would 
also offer immediate access to those servicemembers who want to 
continue to wear the uniform by facilitating instant entry into one of 
the Reserve components or at least having them leave acquainted with 
the range of options for continued service.
    Recruiting for talent retention will become increasingly important 
as Reserve component mobilizations and deployments continue to decrease 
and sequestration budgets degrade readiness. In 2015, 165,686 non-
retirement servicemembers separated from the Active component and only 
56,583 joined the Guard and Reserves. \16\ The Reserve component can 
capture even more valuable talent, save training dollars, and achieve a 
higher experience level across their forces if the Department would 
proceed with this proposal.
---------------------------------------------------------------------------
    \16\ RFPB Report, 65.
---------------------------------------------------------------------------
    Take for example, an Air Force enlisted aerospace propulsion 
mechanic who completes his/her service at Joint Base Langley-Eustis, VA 
and returns home to Atlanta, GA to be officially discharged. After 
completing initial base out-processing functions at Langley, he/she 
would report to Dobbins Air Reserve Base in Marietta, Georgia to 
receive his/her discharge after linking into the ``total force and 
total community'' resources already established there. At Dobbins 
today, a Developmental Training Flight (DTF) unit prepares delayed 
enlistment airmen for basic training and enhances their understanding 
of the Air Force mission and military culture. Their mission could be 
expanded to serve those airmen transitioning back to civilian life. 
Dobbins ARB is near the Department of Veterans Affairs (VA) Atlanta 
Regional Benefit Office, Atlanta VA Medical Center, Decatur Clinic, and 
multiple community based outpatient clinics, Atlanta MEPS, and a 
significant number of large civilian employers. Private sector 
partnerships could be struck with companies like Delta Airlines, based 
out of Hartsfield-Jackson International Airport in Atlanta, to secure 
civilian employment for separating servicemembers. With points of 
contact established by these community based entities in the Dobbins 
Center, transitioning service personnel would be able to access all of 
them. The servicemember separating at Dobbins would become acquainted 
with Air Force Reserve, Air National Guard, and other Reserve component 
opportunities in the local area and the benefits of Reserve component 
service--things like TRICARE Reserve Select, tuition assistance, and 
others. Whether the individual leaves at 4 years, 1 year, 12 years, or 
20 years, this community-based transition program, vice an Active Duty-
based transition program underscores the commitment we make to the 
force.
                               conclusion
    As I close, I want to commend this subcommittee for taking a hard 
look at these problems and identifying and implementing several key 
reforms. Oftentimes, you have been on the cutting edge and well in 
front of the Pentagon. The pilot program providing direct commissions 
to cyber positions, shortening the length of joint duty assignments, 
leave for primary caregivers after the birth or adoption of a child, 
the Blended Retirement System, and granting equal survivor benefits to 
Reserve component members are just a few examples from the last 
National Defense Authorization Act. As a Nation, we need to keep moving 
in a direction that recruits and retains the very best members for our 
military in order to meet the ever-changing national security 
challenges we face.
    Thank you very much for offering me the opportunity to share my 
views with you.

    Senator Tillis. Thank you, General. Thank you for 
recognizing truly the senior person. I learn from Robert Wilkie 
every day. I call him Forest Gump because I tell everybody, 
with all of his experience that you've summarized, he has a 
story for just about everything.
    Senator Talent. Mr. Chairman, he doesn't say that to every 
subcommittee chairman either. When he says he likes this 
subcommittee, he really means it.
    Senator Tillis. Well, I agree. I think that you hit on 
something very important, because the business of the military 
and taking care of our personnel is really the scope of, 
substantially the scope of this committee. There's a lot of 
opportunity.
    Senator Talent and I were talking about how the way that 
we're going about reform and improvement right now is measured 
and incremental, but it's things that are within reach that we 
should focus on that over time make a huge difference, and I 
think we saw good results out of the committee with the Ranking 
Member and the then-chair, Senator Graham, and I'm hopeful that 
we'll make even greater progress this year.
    Because there are so many pressures, the op tempo, the 
limited resources, the concerns with readiness, all these other 
factors that affect morale and ultimately the ability to keep 
the soldier at the same time lethal and safe are being 
challenged, I think the things that came out of the task force 
are very, very important, and very great cookie crumbs and 
great indicators for places that we should prioritize, and I 
appreciate your work.
    I had one question on the lateral entry program. It has 
more to do with the types of skills that you would most 
likely--you would want to be looking for skills where you'd 
really benefit, depending on where someone is experienced 
coming from the private sector, and for some level of service. 
How do you do that and do it in a way that makes the spouse at 
home happy with the kind of compensation that they're going to 
potentially receive? Because if you look at a cyber job, for 
example, cyber talent right now is generally making, at least 
in the industry I came from, highly skilled people start out in 
the low six figures and move up from there.
    So did you spend much time discussing those sorts of 
challenges and have any thoughts on the subject?
    Senator Talent. Yes, we did talk a fair amount about that, 
and I think it would be important for the Department to have 
the authority and the desire to structure fairly flexible 
packages for people. Now, obviously, there are pay bands, and 
this is not like hiring in Silicon Valley. But people don't 
generally join the Armed Forces primarily for money. So the 
idea is if there's a systematic effort to recruit people for 
need for a mission that's recognized as important, I think we 
can expect that a fair number of people with skills in this 
area would be interested in being there, even though they would 
take almost inevitably a financial hit, and I think this is the 
history of the Armed Forces in our wars and our other efforts. 
People have been willing to sacrifice.
    The problem is when the process is so opaque either it 
forbids it or you have to jump through so many hoops, and you 
don't know when it's going to be resolved, and you don't know 
if it's ever going to be resolved.
    We had someone on our staff talk to a woman who was serving 
in a non-profit, in a charitable role in Africa, and she wanted 
to join to offer those kinds of skills to the military, which 
we need in today's day and age, obviously, and it was so 
difficult for her even to access the recruitment process. She 
eventually was able to do it. I think she got help from a 
congressman to be able to do it.
    So the answer is I don't think the financial aspect of it 
is--yes, for some people it would be an obstacle. I don't think 
that's an insuperable obstacle if the process is made 
receptive, clear, inviting, and the purpose of it is clear.
    Senator Tillis. I think that's another reason why we have 
to get--once you are part of the military, we've got to clear 
up a lot of the other issues that you've outlined in the task 
force report. If they move as they get deployed, they by 
definition had a career outside of the military, they most 
likely could go back to it, and that's why it's so important to 
get a lot of these fundamental processes and policies that you 
all have touched on with the task force right.
    I have one question in my remaining time. I'll probably ask 
some follow-up questions after the first round. But childcare, 
in some ways the childcare discussion reminds me a little bit 
about the VA discussion. There are the people who say it should 
all be private. There are people that say it should all be run 
by the Department. Did you all discuss an optimal mix or 
whether or not you take a position at either of those two 
extremes?
    Ms. Roth-Douquet. We do believe it needs to be a public-
private partnership. There's an important role for the 
government. The reason we need childcare for our Armed Services 
is so that they can do their mission. So it really is a 
national security requirement to have childcare for our 
military families. That's why the government should be 
involved.
    But most people actually want childcare near where they 
live, so that requires it to be private. They can't get that 
childcare near where they live for two reasons. They can't get 
off of the waiting list to get into those centers because high-
quality childcare is often multi-year waiting lists, and the 
lifestyle of the military, the frequent moves, don't allow us 
to ever get to the top of those waiting lists. Then it can be 
quite expensive.
    So either the Services can have a role to subsidize that 
childcare, or as part of the national security requirement we 
can look at ways to require a certain number of childcare 
centers to both save space and make it affordable, and make 
that a State or a County requirement. I think there are 
opportunities to look at solutions, but we do need a solution.
    Senator Tillis. Thank you.
    Senator Gillibrand?
    Senator Gillibrand. Thank you for being here.
    Just on the childcare, to finish up, I like the last idea 
the best because I don't think subsidizing is going to work 
because there are a lot of venues where there's not enough 
slots. I mean, there are States where there are not enough 
slots for affordable day care. So are you directly recommending 
that we do public-private partnerships to create on-site day 
care, or are you suggesting some other method?
    Ms. Roth-Douquet. Public-private partnerships to create on-
site would be fine, but also to require a certain amount of 
spots are held, because it's predictable that military people 
will come in.
    Senator Gillibrand. Just as a national security priority, 
if you host a base----
    Ms. Roth-Douquet. Exactly.
    Senator Gillibrand.--you are required to do so, some kind 
of requirement from the State.
    Ms. Roth-Douquet. That's right, and then we recommend an 
on-base childcare coordinator to help both----
    Senator Gillibrand. The problem with requiring it of the 
State is that if there's a base, they're not getting tax 
revenue. So you're already sucking up the sacrifice because 
you're hosting a military installation and you're not getting 
any tax base from that. So then asking them to invest more 
might be hard for some States, although an excellent idea. I 
just don't know how you would----
    Ms. Roth-Douquet. Well, around BRAC, the BRAC analysis, you 
have a good analysis of the amount of income that's brought 
into an area because of a military installation. There does 
seem to be terrific economic activity that is co-terminus with 
the base. So you could balance that off, and also you could say 
this really is something that requires a solution, that the 
talent needs to get together with the installation to come up 
with----
    Senator Talent. Senator, can I just join for a second?
    Senator Gillibrand. Yes, please. Go ahead.
    Senator Talent. I don't think Kathy was talking about 
requiring the localities to pay for the day care but rather to 
hold a certain number of slots for service personnel. Or did I 
get you wrong?
    Ms. Roth-Douquet. Both to hold the spots, but then we are 
going to need to address the cost. Somehow the cost needs to be 
addressed.
    Senator Gillibrand. The problem is there are a lot of 
places that don't have enough childcare and not enough high-
quality childcare. I'll work on that idea about what's the 
best, something this committee can work on, what's the best way 
to facilitate it, subsidize it, or support it meaningfully.
    On cyber, what are your views of how the Department is or 
is not using the ability to use Reserve components and civilian 
personnel to fill cyber needs?
    General Punaro. Senator, from my experience, and also as 
the current chairman of the Reserve Forces Policy Board, 
although I'm not speaking in that capacity here today, I want 
to make that clear, it's moving in the right direction, but 
it's not moving fast enough. Certainly, in speaking of lateral 
entry, there are areas, as Senator Ernst knows, where you have 
individuals in their civilian skills that are in the military 
in that same skill. They tend to be much more experienced and 
mature than what we're able to train in the Active Duty 
military.
    Cyber is so complicated and so difficult, as Senator 
Tillis, the chairman, pointed out. It takes them 3 to 4 years 
to train somebody to be in the cyber mission force up at Fort 
Meade. Once they're trained, they're off Active Duty within a 
year or two of that, and they're going right out into the 
private sector for those big jobs. We'd like to capture them in 
the Guard and Reserve because then we don't lose that benefit, 
plus we have them available.
    But when they started the cyber mission force, the 6,000, 
it was all Active Duty with no Guard and Reserve. You know the 
statistics. The Guard and the Reserve, when they have--I don't 
call them competitions, but when they have these exercises, 
they always do a lot better because they're working at Google 
and Microsoft. We can also site Guard and Reserve units in the 
centers where you have--like Austin, Texas, and San Antonio and 
Seattle.
    So there's a lot more opportunity for the Guard and Reserve 
to be used, and you've got to crank the Guard and Reserve into 
the contingency option. I can speak from personal experience. 
My youngest son, Dan, is a captain in the Army National Guard, 
and he trained signal, and then he went cyber. He's got an MBA. 
He's got a couple of technical degrees. Their unit, they're 
standing up in Virginia, the first Guard cyber unit. Their role 
is to augment the cyber mission force at Fort Meade. The skills 
of the people in his unit are far superior to those that they 
train on Active Duty.
    So it's moving in the right direction. It's not moving fast 
enough, and I think----
    Senator Gillibrand. But what's making it slow? Because in 
the last NDAA we gave them authorities for authorizing more 
hires, and also direct-hire protocols and special pay 
authorities. I've been pushing this for 5 years. Why are they 
so slow?
    General Punaro. The building defaults to they prefer Active 
Duty because they figure, well, we've got them 24/7, and we 
don't have the aggravation of having to bring in the Guard and 
Reserve and the complicated duty statuses, 32 separate duty 
statuses now. The committee and the Department are working to 
reduce those down, but it's a cultural thing, Senator. They 
just like Active Duty. That's just their default position. It's 
quicker for them, but it's more expensive, and the people 
aren't as skilled.
    Senator Talent. This is a partial answer to your concern, 
Mr. Chairman, because to the extent that we can make this 
capability resident in the Reserves so they can continue 
working their regular jobs, the financial issue that you raised 
begins to go away.
    Senator Tillis. Senator Ernst?
    Senator Ernst. Thank you. Well, this is a great discussion, 
so thank you to the panelists for being here today, I 
appreciate it.
    Just following up on some of this discussion about those 
high-level skills that we need in the military, Senator Talent, 
you had mentioned I think the pilot shortage that we have. What 
about requiring longer commitments for those that are trained 
as pilots and then go into those specialty areas? Maybe instead 
of a 4 to 6 year commitment, maybe they have an 8 or 10 year 
commitment. Is that something that has been considered?
    Senator Talent. I don't recall us talking about that 
specifically. Now, where we do get at that is in the 
recommendations regarding altering the up-or-out system, and 
the way the promotion and career progress in the military is 
pegged to command. I mean, the system basically assumes that 
everybody in the service wants to eventually become Chief of 
Staff and puts them on a career path to become Chief of Staff. 
Well, you know this.
    I think there are many pilots--and we did have evidence to 
this effect--they want to fly. They don't necessarily want 
command. If they're pushed into a system where they have to 
train, have to do things that aren't part of their vocation and 
their love, or if they're pushed out because they're not being 
promoted according to the terms of that system, then we lose 
them. We did discuss that an awful lot.
    I don't see any reason why, if we had a more flexible 
recruiting system, why you could not try and negotiate packages 
like that. I think you'd probably have to have compensation 
flexibility to do that.
    General Punaro. So, for example, when we created the 
medical school at Bethesda for military doctors in the early 
1970s--Scoop Jackson was one of the leading advocates of that--
it took almost 10 years. They've got almost a 10 year 
commitment after that. The academies, I think they have 6 years 
now, 5. That ought to be longer. They're getting a huge, 
expensive education, and the statistics are they don't stay any 
longer than the OCS [Officer Candidate School] or the ROTC 
[Reserve Officers' Training Corps] people. A lot of them do 
stay.
    But pilots, the up-or-out system takes people--if you're a 
major and you're the best squadron maintenance officer that 
they ever had in that squadron, and that's all you want to do, 
why can't you do that and stay in and do it longer? But the up-
or-out system doesn't allow you to do that.
    I think the payback period--for example, on cyber, we 
spend--I mean, if you want to be cyber trained in the military, 
you've got 2 to 3 years' worth of schooling. Just the basic 
cyber warrior now at Fort Gordon is 9 months. They ought to 
incur an obligation for training for these specialty skills 
that are in high demand on the outside, and as Senator Talent 
said, a lot of people--so, telling a war story here, as a 
general officer I didn't get a lot of military air, but if I'm 
flying down to Camp Lejeune, you can't ever get there, so you 
get to fly at Andrews. I said, I don't want to fly at Andrews, 
I want to fly to Fort Belvoir. Why? Because Andrews will be a 
Gates Lear jet. It will be two Air Force 1st lieutenants who 
have been flying for a year-and-a-half. I want to fly with the 
Army out of Fort Belvoir in a C-12, a Beach Craft King Air, 
because it will be a CW-05 who has been flying for 25 years.
    Why can't we let people in the military fly for their 
career and recognize they're never going to be Chairman of the 
Joint Chiefs or Chief of Staff of the Air Force, and have a 
payback period? But we don't let you do that.
    Senator Ernst. Right, and I do tend to agree with that. In 
the Reserves and the National Guard, we tend to be a little 
more flexible. I have some great E5 truck drivers that want to 
be truck drivers, or whatever the case may be. They may not 
necessarily want to be a platoon sergeant or a 1st sergeant 
someday. So I think it's great that we have that discussion. I 
know Senator Gillibrand and I have talked about that with the 
JAG Corps [Judge Advocate General]. Some people want to be 
prosecutors. They don't want to be stuck somewhere else leading 
an admin team or whatever it might be. So I think that's very, 
very beneficial.
    But one thing with recruitment from the civilian ranks, 
whether it's in cyber or other areas, if you're looking at 
somebody who has already developed those skills, during his 
confirmation hearing Secretary Mattis had mentioned that the 
warrior ethos is not a luxury, it is essential when you have a 
military.
    So pulling somebody maybe out of a Google or a situation 
like that, understanding it is still the military and there is 
a different culture within the military, and there are 
standards that have to be adhered to, maybe those standards 
could be broadened a little bit, but understanding it is still 
the military, how do you address that?
    General Punaro. Well, I think, for example, in the Vietnam 
era you had the planners that came in after their medical 
school and served on Active Duty, and they would put their 
captain bars on and go right in and didn't get any training in 
how to be an Army soldier. They need to do that. But today, 
Senator, we have 350,000 Active Duty military serving in 
inherently non-governmental jobs. They're not in anything that 
has to do with the warrior ethos.
    So what I would do is I'd try to get our Active Duty 
military back out on the tip of the spear. By the way, we've 
cut the war-fighting forces by 250,000 people. That's where I'd 
focus the warrior ethos. Everybody that comes into the 
Department of Defense is not going to be a warrior, and we 
ought to get our Active Duty military and have the warrior 
ethos there, and the Guard and Reserve, and have these other 
jobs filled by either civilians or contractors. Some of them 
don't even have to be done at all.
    But you're right, you want people to basically have the 
history, tradition, and culture, but they can get that going 
pretty quickly on the Active Duty military side.
    Senator Talent. Senator, I think you've touched on an 
important issue which we did discuss a lot. This system does 
work for certain core functions. I mean, that's why it's there 
and why it's lasted so long, what we think of as the 
traditional war-fighting functions. I do think you should be 
careful that in any changes you make you don't do any harm to 
the system where it is functioning well.
    I also think that in our discussions with the former 
general officers and flags who are on the task force, it's 
going to be easier to really get the cooperation of the 
building if they see that you all are sensitive to the fact 
that the traditional cultural norms are very important for 
everybody.
    At the same time, as General Punaro said, we do this 
already. We do it with military lawyers. My wife was ROTC, and 
then was in the JAG Corps. She went through enough training to 
understand and inculcate the basic norms of the service, and we 
all think that that's important. But as a practical matter, we 
have a lot of specialties and a lot of technical MOSs [military 
occupational specialty] where you don't need to do that the way 
you would if your goal was to command an armored brigade.
    Senator Ernst. Thank you.
    Ms. Roth-Douquet. If I might just add, too, that one of the 
strengths of our military is that it is imbued with the culture 
of the civilian society, the citizen soldiers. The Services did 
not want us to move to an ROTC system in the early 20th 
century. They were worried that that would remove us from the 
warrior ethos. But our political leadership made a decision 
that this is the strongest way for a democracy to lead in the 
world, is to be trained in all aspects of society and bring 
people from all aspects of society.
    So I believe that broadening this actually strengthens the 
military, even though it may make people uncomfortable who are 
in the Services in the short run, but that's part of our 
political leadership's opportunity to help us with.
    Senator Ernst. Thank you very much.
    Senator Tillis. Senator McCaskill?
    Senator McCaskill. Thank you so much, and a special welcome 
to Senator Talent. It's very good to see you, and thank you for 
your work on this, and to all of you for your work on this. I 
really appreciate the recommendations. I think many of them are 
good, old-fashioned--I would call it Missouri common sense that 
we need to adjust and evolve in terms of the needs of our 
military.
    I particularly was supportive of the recommendation to 
include all young American adults as part of the Selective 
Service System. I think that's an important marker that we need 
to put down. We came close to doing that last year, and the 
thing got stymied. I don't remember why. We've all been stymied 
so many times around here, it's hard to keep track.
    I want to talk about an experience I had where I was going 
around the state talking at various military bases in Missouri, 
and I stopped at the National Guard unit out at Jefferson 
Barracks where they stood up a cyber unit within the National 
Guard, and much to my surprise, as part of that unit was the 
premiere IT cyber specialist from Monsanto.
    Now, you can imagine the kind of expertise you have to have 
in cyber at a company like Monsanto, and they were telling me 
about the skill of this man. I was very impressed with the work 
they were doing and found out that he almost couldn't stay in 
because of push-ups. I thought, okay, there is something wrong 
here that we are pulling this kind of expertise into the Guard, 
and then we are going to turn around and say we don't want you 
because of push-ups.
    I will just say that especially in the IT cyber area, the 
one thing that is very clear to me after being here on this 
committee for as many years as I have is the billions and 
billions of dollars we have wasted in how we acquire IT for the 
military, because the people who are deciding what we needed 
didn't know what we needed, and they were depending on the 
people selling it to us to tell us what they needed. So, of 
course, the people selling it to us would say, well, we can 
build that requirement for you, and we can build that 
requirement for you, and we can do all this from scratch, never 
considering anything off the shelf, and that's how you get into 
the kind of problems we've had with DCGS [Distributed Common 
Ground System], where it has been a multi-billion-dollar 
project, still doesn't work very well. Off-the-shelf products 
are going to work better.
    I think it is time for us to consider, and I would ask you 
all, do you believe that we could create a special category for 
cyber warfare that would embrace the warrior ethos, because it 
is a form of warfare, but maybe have less in the area of point-
of-the-spear traditional warfare-type training?
    General Punaro. Senator, right in the bulls-eye with your 
comments, and I think the answer is yes, and here would be my 
comment on it. Let's take that individual in Missouri in the 
Guard. That's absolutely a person we want in the Guard and 
Reserve, and we want their skills. If that unit was more 
integrated into the day-to-day activities of our Department of 
Defense, particularly on some of the cutting-edge cyber 
missions that happen at Fort Meade, that would incentivize the 
people in that unit perhaps to basically get in a little better 
physical shape.
    I think you're going to have to have anybody that's wearing 
the uniform meet the minimum physical qualifications. They 
don't have to get 100 percent score on the PF-2, like everybody 
in the Marine Corps does, but they can certainly do the minimum 
number. I never could get 20 pull-ups myself. I did okay in the 
military.
    But the problem is you've got to incentivize them, and I 
think that's the kind of person that the Active Duty military 
should want involved, and more involved, but there's a little 
bit of a push-back.
    You certainly have categories in the military that have 
different qualifications and different requirements. I mean, 
you're going to have a much more stringent physical requirement 
to be a SEAL [Sea, Air & Land] or be a recon ranger, but the 
minimum standards aren't that tough, being candid. So I would 
certainly think you'd want them to meet the minimum standard 
and incentivize them to do that if they feel like that unit and 
that individual is going to really be a cyber warrior.
    We actually have in the Army now, the Army has a new 
military occupational specialty for cyber. It used to be Signal 
Ops. It's now at Cyber, and it's a pretty exciting thing, and 
the other Services are doing that as well. Our Department of 
Defense has designated cyber as a warfare domain. So I think 
there is a recognition of the importance, and it's moving in 
the right direction, but it's moving way too slowly.
    Senator Talent. Most of what we've recommended they already 
do for certain purposes in certain specialties. If the need 
gets big enough, they'll crash to a work-around. So I think 
what we're saying is systematize it, think about it beforehand. 
I agree with General Punaro. As a matter of fact, maintaining 
good general physical standards is an ongoing challenge for the 
force, and we wouldn't want to suggest that people can be in 
bad shape, but you don't need to do as many pull-ups to be a 
cyber warrior, or push-ups. You're right, and when the need is 
so great, we ought to have a system that's more flexible.
    So a lot of these lateral entry things that we're proposing 
involve flexibility in terms of standards, career progression, 
that sort of thing.
    Senator McCaskill. I just want to also say I was really 
appreciative of the mention of childcare. It's a big deal, and 
I appreciate that the bipartisan group called that out in the 
report. It was terrific. I hope everybody on the committee 
reads this. It's good work. Most importantly, I hope the 
Pentagon digests it.
    Ms. Roth-Douquet. If I could just echo that. In the Blue 
Star Survey, when we asked everyone who took the survey what 
one thing would they most like DOD to do to improve their lives 
in the military--it was an open-ended response; people wrote it 
in--the number one thing that servicemembers and their spouses 
wrote in was improve childcare.
    Senator McCaskill. By the way, the Guard in my state--I 
don't know if you have that problem in Iowa or if you guys have 
that problem, but the Guard in my state, one of the problems 
when I did a roundtable with women in the Guard was finding 
childcare for the weekends they had to train, because that is 
not normal childcare hours, and I'm trying to put in the NDAA 
[National Defense Authorization Act] some way that if they're 
going to be training at a base, that they can access the 
childcare facilities on the base for their children during 
training, because it's a real issue for a lot of families that 
are doing weekend training.
    Senator Talent. Senator, generally speaking, if you look at 
the surveys, and Kathy can speak to this at great length, we 
tend to focus here, and certainly they do over in the building, 
on solving retention and other issues through compensation or 
bonuses or benefits, and that's important to families. I mean, 
let's not say it's not. But what we were hearing back is a 
greater and greater level of frustration that the system 
doesn't seem to understand what they're dealing with.
    At the beginning of the hearing Kathy mentioned, and she 
certainly would know, just the fact that you all are holding 
this hearing and are listening will be tremendously encouraging 
to military families because they'll know somebody is paying 
attention to it, and I think they feel like the system right 
now is not.
    Senator McCaskill. I think that makes sense.
    Thank you, Mr. Chairman.
    Senator Tillis. I'm glad I think there's consensus among 
the four of us who are here about the childcare component. Down 
in North Carolina with the large military presence we have, 
there's never a time that I don't get together on the base or 
in military communities where this isn't half of the 
discussion. When you have questions or concerns about that, it 
also distracts the person in uniform from what they're hired to 
do, what they're doing in the military. So we have to work on 
it, and I believe this committee agrees it needs to be one of 
the key areas of our recommendations coming out of the 
committee.
    I have to agree that awareness of the--I guess, Colonel 
Wilkie, you told me this before. I don't know if he's here 
right now, but is it 11 states? What's the percentage of----
    Colonel Wilkie. As Senator Talent said, over half of the 
Officer Corps comes from 11 states.
    Senator Tillis. Yes. So even in North Carolina, where you 
have the tip of the spear, the global response force down in 
Fort Bragg, you have Camp Lejeune, you've got the largest Coast 
Guard air station in the United States, a lot of people in 
various branches, in various national defense positions, all 
you've got to do is get to Raleigh and the awareness of the 
military and any connection to the military goes away. You get 
to Charlotte and it's even further.
    I like the idea of the military aptitude test, moving that 
forward to the point of registration. Was there any discussion 
about even earlier in the cycle, like in high school?
    Senator Talent. I recall that we did discuss that somewhat. 
We focused pretty much on the registration point because we 
just felt that it was, first of all, an existing access point. 
Second, with high schools, so many high schools differ so much 
around the country, and then you'd have to pick out exactly 
when, and we just thought that was the perfect opportunity when 
they have to think about it a little bit anyway because they 
have to register, to then provide for this.
    Now, we did not work out the details of what kind of a 
burden it would be and all the other things you'd have to check 
out. But I think the potential in terms of raising awareness 
and connecting young people to the military, at least for that 
episode, is potentially very great. I really think it might 
have a big impact on recruitment, and they could do some 
recruiting things around that as well.
    Senator Tillis. General?
    General Punaro. I agree. I think that's very important. The 
history has been a lot of food fights over the years to try to 
give our military more access to the high schools. The Solomon 
Amendment many years ago made it available. At least we can go 
and recruit now.
    One way of getting them earlier is through the Junior ROTC 
programs. These are great programs. That needs resources. There 
are places where they'd like to do it where they don't have the 
resources to do it. But the sooner we can get to them--as you 
know and the staff knows, the two alarming things that are 
happening on the recruiting side--and again, we're talking 
about we've got to have the world's finest military in 2025, 
not just in 2017. The propensity to enlist is something they 
track all the time. That's tracking down. The eligible 
demographic of our 17- and 18-year-olds that are physically 
qualified is tracking down.
    The one that's alarming to me, and I know the staff will be 
more current than I am, and they can track this down, we have 
benefitted from the families that have served in our military. 
Their sons and daughters, brothers and sisters serve in much 
higher numbers than the regular population. That propensity 
now, and it's a huge source of our military recruits, is now 
tracking down for the first time, and that's because they've 
looked and seen what their parents and their brothers and 
sisters have done for the last 15 years, and they don't want to 
do that.
    So the sooner we can get and educate--and the other point 
you make is, and this is why I think the Guard and Reserve 
needs to have a more prominent role in the future, is because 
of the disconnect between civilian society and our military. As 
we neck down through five base closure regions, we've got parts 
of the country that have no military presence whatsoever. Like 
you say, even in a great state like North Carolina that 
generates far more recruits, as does the South, 43 percent, 
than any other region, you've got pockets that really don't 
have that.
    So that's got to be addressed. You can't have a strong 
military and you can't be successful on the battlefield if the 
American people are not connected to and behind our military.
    Senator Tillis. Senator Gillibrand?
    Senator Gillibrand. Thank you, Mr. Chairman.
    I want to focus a little more on spousal hiring, and I'll 
start with the childcare. So one idea for spousal hiring is 
hiring spouses to work at these childcare centers, but I do 
understand that there's a very, very cumbersome background 
check process, along with Federal hiring timelines. How does 
that impact the ability to make that happen? Related, what are 
some of the other challenges you have for hiring spouses? I 
know there are difficulties with the transfer of certifications 
across state lines. I understand there are complications 
because of budget uncertainty. What are your recommendations to 
begin to solve some of these challenges?
    Ms. Roth-Douquet. Thank you so much for asking that 
question. For childcare, right now it's taking 18 months to get 
background checks for childcare workers. If you're stationed 
somewhere for a year or two, or even three, that's just a 
barrier.
    It's not actually only for childcare workers. It's actually 
to volunteer to be a coach on a sports team or any other place. 
There are huge bottlenecks.
    One opportunity would be to allow anyone to get a check to 
be certified from the time they become a spouse. This is true 
for servicemembers as well, by the way, who leave service and 
become a spouse, their prior----
    Senator Gillibrand. So maybe we could authorize in the NDAA 
that we want to create a certification process for these 
various opportunities that you can do wherever you are, get it 
done, it's all State certification, Federal certification that 
should be usable anywhere you are.
    Ms. Roth-Douquet. That would be tremendous. I think also to 
allow certified people to provide childcare businesses on base 
would be a great opportunity right now. Often that's not 
possible.
    Senator Gillibrand. Yes.
    Ms. Roth-Douquet. Then in terms of two things for spouse 
employment that would make an enormous difference and not cost 
any budgetary dollars. One is 79 percent of military spouses 
seeking jobs on bases, GS [general schedule] jobs, are not 
getting them. We have the authority to hire them. People 
typically think we can't hire them because there's a veteran 
preference. Well, actually, under law we have the authority to 
appoint a qualified spouse to a job. People simply aren't using 
that authority.
    Senator Gillibrand. We need to make a different preference 
then? We need to change the language?
    Ms. Roth-Douquet. We don't even need to make a different 
preference. It exists. We need to direct them to actually do 
it.
    Senator Gillibrand. Do it.
    Ms. Roth-Douquet. They actually have the authority, and 
most people either don't know it--I think they probably just 
don't know it. But installation jobs are excellent jobs for 
spouses because they're career quality. They're GS jobs that 
you can move up in them. The taxpayer saves money because when 
you go overseas and you have a trailing spouse taking that job, 
you're not paying the relocation allowance, the COLA [cost of 
living adjustment], all the costs that you pay right now to 
send a veteran overseas to do that same position for three 
times the pay.
    Another thing is licensing. Virtually every job in America 
today requires a license, whether you're a dog groomer or a 
nail technician or a lawyer. So even though there's been 
progress made in transferability of licenses, again the actual 
application of that has been spotty. Sometimes there may or may 
not be authority. It may or may not be used. To create a 
blanket authority, I think again under the NDAA--this was my 
friend Senator Talent's brilliant idea--you must accept other 
states' licenses for military spouses for a period of 2 or 3 
years, or if you don't you have to waive the fees for them for 
health reasons only, you have to waive the fees associated with 
it.
    As a matter of national security, and there's a good 
argument to be made, we have statistics that show that spouses 
who work are supportive of military service, are supportive of 
recommending military service, those who do not feel their work 
has been hurt by the military. It's 80 percent who feel it's 
been hurt, only 36 percent of them are supportive of staying in 
the military and recommending military service.
    It's the one thing that not only keeps our families strong 
but it also reduces the need to pay more for the people in 
uniform because you increase their household income.
    Senator Talent. Senator, if I could briefly, nobody speaks 
about these issues as compellingly as Kathy. The two of us, the 
whole task force discussed this question of State 
certification. Kathy and I pushed pretty hard for a more 
aggressive recommendation than what's in there. What we have in 
there is that we recommend working with the States to try and 
reduce this problem, which is certainly one way of dealing with 
it.
    Now, personally and speaking for myself, I would really 
consider going much further and much stronger so that if 
somebody is certified--and you could have a list of different 
kinds of professions or vocations, and there may be some that 
you feel are so sensitive in terms of State concerns that you 
want to carve out exceptions for that, and I'll just pick one. 
If somebody is a licensed dental technician and they're 
licensed in Massachusetts, Senator, it's not some tremendous 
threat to the dental profession if they get transferred to 
California to allow them to practice their profession, and you 
have authority to require that of the States.
    If you sent a signal that you were going to, I think the 
Governors Association at minimum would sit down and start 
talking seriously, and you probably motivate the States. I 
think this has real potential. I can't imagine anything more 
frustrating than finally getting a job at one post or one 
station, getting transferred without any notice, and then going 
someplace and finding you've got to pay $2,000 or take an 18-
month course to get licensed. It's so frustrating. That doesn't 
cost any money, really. The States should be sensitive to this 
anyway.
    So I hope you will consider it, but I can't say that that 
recommendation is in the task force report.
    Senator Tillis. Senator Warren?
    Senator Warren. Thank you, Mr. Chairman, and thank you to 
our witnesses for being here and for this thoughtful report 
that you've put together.
    I want to ask a question that's related to where Senator 
McCaskill was going, but I want to ask a different part of it, 
and that's about the recruiting and retention of highly skilled 
and specialized technology jobs.
    It seems to me that this is an area where we could probably 
stand some improvements. In Massachusetts, for example, we have 
some of the best computer scientists and engineers in the 
entire world, and many of these men and women are looking for 
ways to serve their country, but they may not think that they 
are interested in a military career, and the military may not 
think that they are interested in these people.
    It seems to me that our military recruiting system is not 
very well oriented to recruiting and retaining cyber warriors. 
So can you all say just a bit about how we might change our 
recruiting system so that we are identifying and recruiting the 
best talent for jobs that aren't traditional military 
specialists? Whoever would like to start on that.
    Senator Talent. I'll just say, Senator, that's a big part 
of our report, and there's a lot of precedent for this. You 
know, when the need has been there and they've recognized it, 
they've been able to do these things. William Paley, who was 
the head of CBS or something, in World War II was brought in as 
a PSYOPS [psychological operations] expert with the rank of 
colonel. There was flexibility in those times to do it.
    So I think what we recommend is that they at minimum 
identify certain areas like you're talking about, and certainly 
Boston would be a place, in the Boston area, where there's a 
number of people who might be willing to consider this, with 
certain specialties, certain skills. They can begin doing it 
that way, which they really need, and then loosen the rules so 
they can be more flexible in terms of what the commitment is, 
maybe some flexibility on compensation, some commitments about 
how often they're going to move, which would reassure the 
family, flexibility in terms of rank and what their path for 
promotion is, and then definitely ensuring that continuum so 
that when they do leave Active Duty they go into the Reserves 
and we don't lose those skills, and then it's easier to 
activate them in the future.
    But General Punaro will be the expert in this.
    General Punaro. So I would say you're right, spot on. The 
first thing that has to happen is our military has to do what 
private industry is doing today, and that is they're looking at 
2025 and 2030 and determining, if you're General Electric, now 
headquartered in Boston, Massachusetts, thanks to the taxes in 
Connecticut----
    Senator Warren. Actually, thanks to the attraction of 
Boston, Massachusetts.
    [Laughter.]
    General Punaro. I won't get into that debate. 
Unfortunately, the Celtics beat our team last night, but that's 
neither here nor there.
    They figure out in General Electric and all the big 
corporations what are the skills we're going to need in our 
company to be successful. We don't do that in the military 
today. We're looking at, okay, how do we get our quota in the 
next quarter or the next year.
    So the first thing we've got to do is--and once General 
Mattis and the team has the new strategy for that decade, 
because it takes that long in the military, as our staff knows. 
It takes 15 years to train a battalion commander and a 1st 
sergeant in the National Guard. So what are the skill sets? We 
know they're going to want the skill set you identified. We 
know the military is going to be more technical.
    Okay. Now that we know we're going to need that skill set, 
what is the best way to bring them in? Should it be Active 
Duty? Should it be Guard and Reserve? Maybe it's a defense 
civilian. Maybe it's a contractor. Maybe it's an FFRDC 
[federally funded research and development center], like 
Lincoln Labs. Then you determine what's the right mix.
    I'm a big supporter, as Senator Ernst and others know, of 
the Guard as home base. So if you join the Guard in 
Massachusetts, or you join the Guard in another state, you're 
typically going to stay within that state. You're not going to 
move all over the country like Active Duty. You can stay at 
work in one of the great cyber firms and be promoted in your 
civilian job and be promoted in your military job.
    It's the flexibility. What we've argued in our report and 
the good thing about the force of the future that Secretary 
Carter did, not necessarily the solutions, but I think they did 
a good job of identifying the problems--that would be a good 
starting point as you look at what are the right solutions. So 
we've got to make the military recruiting, retention, and 
personnel management system much more flexible, just like we do 
in private industry, just like you would do here in the U.S. 
Senate. You move people around all the time. They can't do that 
in the military today under DOPMA/ROPMA.
    Senator Warren. Right.
    Ms. Roth-Douquet. Just to add, Dr. Chu helped us with a 
great suggestion about making G.I. Bill or ROTC relief 
available for people with graduate degrees, so to bring in 
someone with a graduate degree in computer science, forgive 
their loans in exchange for that service could be a great 
opportunity.
    Senator Warren. Thank you very much. I just want to say on 
this one, because I think it's really important, you talk about 
the tools that are needed, but you're also talking about a very 
different approach from a management perspective.
    So I think it's going to take both. We have to think hard 
to make sure that the tools are available, but we've also got 
to think hard about how it is that our senior leaders in the 
military approach this set of issues.
    Go ahead, Senator, as long as our Chair is okay with the 
time.
    Senator Talent. From my time on the other side of the 
table, I think as you approach this it's the old carrot/stick 
thing. You're going to keep pushing, but I would also 
encourage, both in hearings and in private conversations, 
encourage the new Undersecretary for Personnel and the Chiefs 
that if you try these things and something doesn't work as well 
as we all hoped it would work, we're going to be understanding 
from our side of the table. In other words--and again, I'll 
speak as a former Member--it is a little bit unfair to push 
them to do something and then really come cracking down hard on 
them when they try it and it doesn't work. I'm not accusing. 
You're certainly entitled to expect performance and the rest of 
it, but I think if you sent that message along with the rest of 
it, it would probably be okay.
    Senator Warren. I think you're right. It seems like what we 
do right now is we encourage risk aversion and just stick with 
whatever you've done for the last 100 years rather than 
encouraging people to take some risks, even recognizing there 
will be some failures.
    Thank you, Mr. Chairman, and thank you.
    Senator Tillis. Thank you, Senator Warren.
    Before we got here, it reminded me of a line of questions 
you asked a prior panel that had to do with helping the 
transition out of the military into equivalent jobs, which is 
another area we need to work on, because I think if we work 
more diligently to define career path and align MOSs to 
private-sector jobs that are appealing to people that are 
currently in the military, then they're likely to stay there to 
get that extra skill that at the point in time they decide to 
separate they can very quickly go and get a private-sector job. 
We've got to work on that.
    That also requires the licensing for military spouses. It 
requires stepped-up attention on the part of the States, and 
it's something that perhaps this committee could look at. I 
don't know if it's typical to have people from the Governors 
Association here or legislators, but we really need to heighten 
this.
    Anytime I talk with state organizations, they're open to 
the idea, but there's no one taking the lead to really force 
real progress.
    Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    This is a great conversation. We're covering a lot of area, 
and I think it is really important. Senator Talent, I'm going 
to go back to something that had been one of your suggestions, 
creating an adaptable workforce. You mentioned promoting and 
compensating servicemembers based on merit, which I do think is 
important. Our current pay structure provides no financial 
incentive for our senior enlisted members to lead at the 
highest levels outside of the Joint Staff, and I'll give you an 
example of this.
    So, you may have the senior enlisted advisor at PACOM 
[Pacific Command], which literally covers half of the globe, 
and that senior enlisted advisor is paid at the same base level 
as a command sergeant major that's working for an O-5. There is 
very little incentive for some of those enlisted members to 
continue rising in the magnitude and the scope of their duties.
    So do you think that linking compensation to that scope and 
magnitude of an individual's duties is important?
    Senator Talent. Yes, and we have a number of 
recommendations, and you've referred to them, Senator, about 
being able to adjust pay to criteria for performance other than 
just simply time and rank. If we align that, then, with the 
flexibility of allowing people to determine a little bit more 
their own career paths and promotion paths, we begin to 
individualize it a little bit more. So we then align the 
financial incentives with creating greater satisfaction and a 
sense that we have more control, and I think again it's an 
enormous institution with 2 million people, if you count the 
civilian employees, so they're not going to be able to 
individualize this the way a small business would, and you 
can't expect that. But I think we'll get more satisfied people 
for longer, and I hope that--because they're really pressed, 
obviously, from a funding standpoint. But I think if we can 
increase the sense of satisfaction, then the compensation won't 
be quite as big a factor.
    But I certainly agree, and we do have discussion in here, 
although not at great length, about the importance of applying 
this to enlisted as well, these concepts at least to enlisted 
as well.
    Senator Ernst. Yes, I do think there's a lot of talent out 
there and a lot of weight upon the shoulders of some of our 
senior enlisted members. Our officers, when they increase in 
levels of authority, continue to be paid more. But our enlisted 
members do not. So I think that is a disparity that we need to 
take a look at and reward those that want to stay and take on 
greater levels of responsibility.
    General Punaro. Thomas Gates, when he chaired the 
commission for Richard Nixon that looked at whether we should 
do away with the draft and go to a volunteer force and 
recommended that, a recommendation that was opposed by every 
single person in the military at that time even though the 
Vietnam War draft was immensely unpopular for our military at 
the time, it was a steady source of recruits. Gates said at the 
time we should do this, and we did it in 1973. That was the 
first year I showed up here on the subcommittee, and we had to 
deal with the volunteer force, saving it over a 7 year period.
    He said three things have to change or the volunteer force 
won't be sustainable. One of them was get rid of the up-or-out 
promotion system. Two was look at change in the cliff 
retirement system in 20 years that encourages your most 
experienced people to leave at 20 years, and now because they 
live longer we pay them for 65 years to serve for 20 years. 
Then the third thing he said was you've got to shift pay and 
compensation from time and grade and rank to skills, 
performance, and responsibility, and we need to make some of 
those changes.
    You'd have to do it gradually. You could do pilot programs. 
We have skill and proficiency pay. You have jump pay and pilots 
pay. But why shouldn't the person that's a command sergeant 
major for the largest geographical command--that's certainly 
something that ought to be looked at. The military will fight 
this tooth and nail because they like the simplicity of every 
E5 gets paid the same thing, whether you're a cook or you're a 
tank turret mechanic. So it's going to take some real cultural 
change. Hopefully they will be more open to it than they've 
been since 1973.
    Senator Ernst. Hopefully that cook would be making more if 
I'm eating that food.
    Do you mind if I just--I'm going to touch briefly upon 
something, no need to comment unless you want to. But we've 
been talking a lot about recruitment as well, and the ASVAB 
[Armed Services Vocational Aptitude Battery]. I know in my 
daughter's high school, which is very tiny in a very rural part 
of Iowa, all of the kids in her senior class take the ASVAB. 
That's something that's important to that school counselor, so 
everyone will take that ASVAB.
    Especially showing leadership I think is really important 
when we're looking at young talent and encouraging that talent 
to go into our service academies, and this is one thing that I 
think we do a very bad job of as senators and congressional 
Members, is making sure that all of our state allotments or 
slots are filled and sending names to those service academies. 
I know there are congressional Members that don't make 
recommendations. They don't make recommendations, and I think 
that is a horrible thing for that opportunity to slip away from 
some of those young people in those states that may be able to 
receive a high level of education that they wouldn't otherwise 
receive.
    So we need to do a better job at being leaders in that area 
as well, and getting that talent to the right schools. So 
that's my soap box.
    Senator Talent. Senator, I could not agree more, and I've 
always made that an important priority in my office. We tried 
to work with the kids and tote up the number. Particularly in 
the House I did this from the 2nd Congressional District in 
Missouri, and then afterwards always had a party for those who 
just got the recommendations. I'm digressing now but, I'll tell 
you, if you want to be encouraged, and you all I'm sure do this 
in one form or another, you get together all those kids who 
sought to go to one of the service academies and their families 
and you see the kind of young people that this country is still 
producing. I'm telling you, that's an encouraging thing.
    I could not agree with you more. I love the congressional/
senatorial recommendation aspect of this, and I think our 
offices--because you all are connected to the people, and this 
is a way of engaging through your offices. It engages the 
public. People learn about this process because you're out 
there talking about it. So I couldn't agree with you more.
    Senator Tillis. I completely agree that one of the most 
enjoyable parts is when we finish the selection and put forth 
nominations for the academies we have a celebration and an 
awards ceremony down in the state, and I'm completely recharged 
while I'm in the presence of all these young men and women, and 
on the ride home I feel completely inadequate as a high-
schooler when you see their 5.0 grade point averages and their 
community service and all the things that they do. It is 
remarkable, and it's inspiring. It gives me a lot of optimism 
that if we get these sorts of policies right, that we can 
attract even more and more of those people.
    Senator Talent. Senator, I'm glad I was able to give 
nominations because I could never have gotten one myself when I 
was in high school.
    [Laughter.]
    Senator Talent. So I completely understand.
    Senator Tillis. That's right. Incidentally, there's a lot 
in the 39 recommendations. There's a lot of this report that we 
have to digest, and I have a number of questions for the record 
that we would like to submit.
    General?
    General Punaro. Mr. Chairman, before you close out, with 
your permission, can I make a quick comment?
    Senator Tillis. Absolutely.
    General Punaro. The one thing that I take away from all 
this--and thanks to the leadership of Jim Talent and Kathy. I'm 
a Marine infantry officer. I grew up in the infantry. We're 
kind of dinosaurs, but the one thing that I think is 
dramatically different that we need to recognize here in the 
committee and in the Department of Defense is the role of the 
family. If we don't make some adjustments--in the private 
sector, as you know; you're a businessman. I serve on the board 
of a couple of the top universities in this country--for 
example, Syracuse Maxwell. It's the number-one government 
school. When we try to recruit a cutting-edge professor to come 
to Syracuse, if we can't find an equivalent job for that 
person's spouse, whether it's a man or woman or whatever, 
they're not going to come.
    In industry, in the industries I work with, when we try to 
recruit a cutting-edge engineer or a software engineer, if we 
don't have an equivalent job for the spouse, they're not going 
to come. When I talk to the people who leave at 10 and 11 years 
that we ought to keep--one example is a young Navy female pilot 
who had a Bachelor's and Master's degree in aeronautical 
engineering, a great helicopter pilot. The problem was the 
spouse, the moves, and the fact that her husband was not going 
to be able to work in his field, and they got out. Now, I 
talked her into staying in the Reserves.
    We've got to do something. I don't know the answer. I don't 
know how to do it, and if it costs money, and I'm one that has 
been exceedingly concerned about the long-term costs of the 
volunteer force, there's probably stuff that we're paying over 
here and we could move it over here. We have got to make a 
fundamental change in the way that we deal with the military 
family.
    Senator Tillis. I agree. I think one of you mentioned the 
need to pilot and try to take these things in steps so that we 
can make progress and not make it too complicated and really 
manage the size of the pilot so that we can get measureable 
results, so we can dollarize.
    General, you know the cost of attrition with the amount of 
money that's being spent. I think that maybe investing in some 
of the programs that really help the military families, the 
other programs that are suggested in some of your 
recommendations, that there is a way, if we focus this on a 
methodical basis, to show the cost/benefit to this, because 
it's precisely why you see businesses only going so far with 
compensation when they look at other things, particularly the 
generation that's coming up now that look at their engagement 
with their employer beyond just the money.
    So I think the more that we spend on that and the more that 
we--there's a science to it in terms of personnel policies 
ultimately affecting attrition and the cost of recruiting, that 
there's a way to really justify, I think, these investments in 
time and money.
    But I thank you all for the hearing. I appreciate the 
participation from the Members.
    Senator Gillibrand had a pressing issue. She apologized she 
couldn't stay. She always stays for the duration of these 
hearings, but she had something taking her back to the office. 
But I know the two of us on many of the subjects we talked 
about today share common priorities. I look forward to working 
with the committee to make recommendations that ultimately get 
incorporated into the NDAA.
    Thank you all for your time and the work on the task force. 
We look forward to seeing you back before the committee.
    This meeting is adjourned. The record will be help open for 
a period of one week.
    [Whereupon, at 3:45 p.m., the committee adjourned.]

                                 [all]
</pre></body></html>
